<html>
<title> - 81-854 PDF</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]


For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
 
81-854 PDF

                                 ______

2002


 
 SUSTAINING CRITICAL MILITARY TRAINING FACILITIES: AVON PARK AIR FORCE 
                                 RANGE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 4, 2001

                               __________

                           Serial No. 107-106

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
JOHN J. DUNCAN, Jr., Tennessee           (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                           Jason Chung, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 4, 2001...................................     1
Statement of:
    Thompson, Lt. Col. Earle R., USAF, Commander, 347 Rescue 
      Wing, Det 1 & Avon Park AFR, MacDill AFB, Florida; Lt. Col. 
      Charles Golden, operations and plan officer, Florida 
      National Guard, Camp Blanding, Stark, FL; Ronald J. Liszt, 
      Acting Assistant Air Traffic Division Manager, Southern 
      Region, Federal Aviation Administration; Steve Handley, 
      rancher/councilman, city of Avon Park, FL; Curt Olsen, 
      Timber Management Operations, Avon Park Air Force Range, 
      Avon Park, FL; and Dale Landress, warden, Avon Park 
      Correctional Institution, Avon Park, FL....................    10
Letters, statements, etc., submitted for the record by:
    Golden, Lt. Col. Charles, operations and plan officer, 
      Florida National Guard, Camp Blanding, Stark, FL, prepared 
      statement of...............................................    18
    Handley, Steve, rancher/councilman, city of Avon Park, FL, 
      prepared statement of......................................    28
    Landress, Dale, warden, Avon Park Correctional Institution, 
      Avon Park, FL, prepared statement of.......................    41
    Liszt, Ronald J., Acting Assistant Air Traffic Division 
      Manager, Southern Region, Federal Aviation Administration, 
      prepared statement of......................................    23
    Olsen, Curt, Timber Management Operations, Avon Park Air 
      Force Range, Avon Park, FL, prepared statement of..........    32
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................     7
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Thompson, Lt. Col. Earle R., USAF, Commander, 347 Rescue 
      Wing, Det 1 & Avon Park AFR, MacDill AFB, Florida, prepared 
      statement of...............................................    13

 
 SUSTAINING CRITICAL MILITARY TRAINING FACILITIES: AVON PARK AIR FORCE 
                                 RANGE

                              ----------                              


                        SATURDAY, AUGUST 4, 2001

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                     Avon Park, FL.
    The subcommittee met, pursuant to notice, at 11:04 a.m., at 
the Avon Park Air Force Range, Avon Park, FL, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays and Putnam.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Grace Washbourne, professional staff member, full 
committee; and Jason M. Chung, clerk.
    Mr. Shays. The Subcommittee on National Security, Veterans 
Affairs and International Relations hearing entitled, 
``Sustaining Critical Military Training Facilities: Avon Park 
Air Force Range'' is called to order.
    Good morning, everyone and thank you for being here.
    My name is Christopher Shays. In Congress, I represent 
Connecticut's 4th District, the southwest part of the State, 
and I serve as chairman of this Government Reform subcommittee. 
Your very able representative, Adam Putnam, serves as our vice 
chairman, and it is at his request that we convene this hearing 
today.
    I want to thank him for having us in his district and for 
all his hard work on the subcommittee. As I think you must 
know, Adam is a very intelligent young man, and in many ways 
mature beyond his years. When he chairs the subcommittee, he 
shows the steady hand, the quick wit and the cool head of a 
veteran member. In fact, I sometimes think he may be getting a 
little too good at it and he may not get the gavel back. That 
is why it is on the right side. [Laughter.]
    But he has quickly become an important contributor to our 
oversight work and we, Republicans and Democrats alike, truly 
value his service.
    We are an oversight panel, which means we do not write laws 
or appropriate money. We examine Federal programs to make sure 
they operate as efficiently and effectively as possible.
    Last May, the full Government Reform Committee began 
examining a number of issues broadly termed ``encroachment'' 
that limit the use of the land, sea lanes and airspace needed 
for realistic combat training. The proximity of local housing 
and commercial development, over-flight and noise restrictions, 
the complexity of environmental compliance, air traffic 
congestion and conflicts over use of radio frequency spectrum 
were cited as significant factors constraining the quality and 
quantity of military training at U.S.-based facilities.
    Testimony also suggested that successful resolution of many 
encroachment issues depends on close cooperation between 
military and civilian leadership and effective community 
relations on the part of training facility managers.
    Our purpose this morning is to bring that discussion to 
sharper focus by examining encroachment issues in the context 
of a specific training facility, the Avon Park Air Force Range. 
The record of these proceedings will be available to our 
committee colleagues, and ultimately to the public, and the 
testimony we hear today will help form the basis of our 
findings and recommendations to sustain, expand and improve 
critical training facilities such as this facility.
    The planned closure of the Navy's facility at Vieques, 
Puerto Rico, and the need for increased training sorties to 
accommodate force transformations and the introduction of new 
airframes, suggest the Avon Park Range could assume a larger, 
not smaller, role in future military training. In that event, 
encroachment issues associated with current and potential range 
uses will have to be managed successfully to integrate military 
training requirements with local civilian economic development 
plans.
    We look to our witnesses for a candid discussion of range 
management issues at Avon Park and for their assessment of 
efforts to sustain the range as an important military facility 
and an integral part of the area economy.
    At this time, I would like to call on the vice chairman of 
this committee and I would say to you something that I have 
never said to Adam--this would probably please his parents. You 
know, when you are a new Member of Congress, your mother or dad 
sometimes thinks that maybe some day you will become President. 
And I would tell you that when you get to be about 55, you 
realize that will never happen. So then you think, well, you 
know, I probably know someone some day who may become 
President. And I looked around at all the Members and he is one 
of the people on my list of five. So some day I will be able to 
tell my grandchildren that I was chairman when there was a 
member of my committee who was vice chairman, who is now your 
President. Mr. President. [Laughter and applause.]
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T1854.001
    
    [GRAPHIC] [TIFF OMITTED] T1854.002
    
    Mr. Putnam. Thank you, Mr. Chairman, thank you very much 
for that very kind introduction and thank you for holding this 
important hearing. Avon Park Air Force Range is a cornerstone 
of economic development in the heartland of Florida and is 
vital to our national security.
    The military needs to train, it needs to practice the 
missions it may be called upon to perform if commanded by our 
national leadership to defend our Nation's interests. This 
training needs to be as tough and as realistic as possible. A 
soldier once put it best when he said ``Train hard, fight easy 
. . . and win. Train easy, fight hard . . . and die.'' We owe 
it to the men and women who put their lives on the line to 
defend our homes and our national interest, to give them the 
opportunity to train as hard as they need, to come back as live 
winners.
    For almost 60 years, Avon Park has served our Nation in 
training the aviation arms of all three service branches as 
well as artillery and special operations forces. The climate 
provides our troops the ability to conduct their training year-
round. We welcome units from all over the Nation that can use 
Avon Park while their home bases are socked in by winter 
weather. Avon Park Air Force Range is the largest facility of 
its kind east of the Mississippi and one of the most flexible 
training areas available to our armed forces, with a wide 
variety of terrain and facilities available that all services 
can use to hone their warfighting skills. Both our active 
forces and the Florida National Guard use it extensively, and 
with the Special Operations Command, the Southern Command, and 
the Central Command, all headquartered in Florida, it only 
makes sense to maximize their use here in Avon Park. 
Particularly now as it appears that the continued use of 
Vieques is uncertain, this committee and the military should 
examine what missions could be added to Avon Park. Even our 
allies are looking for new, realistic training facilities. Just 
this past week Jane's Defence Weekly reported that the Israeli 
Ministry of Defense has requested a permanent training base in 
the United States in order to conduct realistic combat 
exercises and train for long-range air strikes.
    Avon Park has done well in coordinating its military 
activities with its civilian neighbors. The relationship it has 
with the Sebring Airport, the Avon Park Correctional 
Institution, the ranchers who lease grazing rights for their 
cattle, the hunters and fishermen who use the area, the 
managers of the State Park, and the foresters have been notable 
for the degree of cooperation involved. There are no major 
conflicts over environmental stewardship issues. I look forward 
to discussing with our witnesses how this has been accomplished 
and how it might be used as an example for other bases. The 
real-time air traffic control system in use by the Range and 
civilian air traffic controllers is a model of military-
civilian cooperation.
    There is always room for improvement. The Federal Aviation 
Administration should also proactively cooperate with the Avon 
Park military authorities to protect the range's special use 
airspace from vertical encroachment. In a fast-growing area 
such as ours, bringing all of the stakeholders, including the 
military, into the planning of new construction at local 
airports, high rise buildings, television, cellular and radio 
towers and other structures that might encroach on the bombing 
range, military operating areas and training routes, is 
important to safety and to maximizing usage. Everyone needs to 
be kept in the loop so that potential problems can be worked 
out in advance before they cost money or jeopardize training.
    Mr. Chairman, I look forward to our witnesses' testimony so 
that the subcommittee can examine how Avon Park Air Force Range 
has served our Nation and our community and can continue to 
serve our 21st century defense needs.
    On a personal note, Mr. Chairman, it is good to be home and 
I welcome you to the 12th District of Florida.
    [The prepared statement of Hon. Adam H. Putnam follows:]
    [GRAPHIC] [TIFF OMITTED] T1854.003
    
    [GRAPHIC] [TIFF OMITTED] T1854.004
    
    Mr. Shays. Thank you very much.
    Let me get some housekeeping done. I ask unanimous consent 
that all members of the subcommittee be permitted to place any 
opening statement in the record and the record remain open for 
3 days for that purpose. And without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
And without objection, so ordered.
    I am going to recognize our witnesses, I will then swear 
them in and then I am just going to have an announcement about 
how we are going to proceed, before we take testimony.
    We have six witnesses in our panel: Lieutenant Colonel 
Earle R. Thompson, U.S. Air Force, Commander, 347th Rescue 
Wing, Detachment 1 and Avon Park Air Force Range; Lieutenant 
Colonel Charles Golden, Operations and Plan Officer, Florida 
National Guard, Camp Blanding; Ronald Liszt, Acting Assistant 
Air Traffic Division Manager, Southern Region, Federal Aviation 
Administration [FAA]; Mr. Steven Handley, rancher and 
councilman, city of Avon Park; Mr. Curt Olsen, Timber 
Management Operations, Avon Park Air Force Range; Mr. Dale 
Landress, Warden, Avon Park Corrections Institution.
    Let me just announce as well, besides this panel, here is 
what we are going to do. After the invited testimony and our 
guests on the panel are finished and we have asked them 
questions, we will use the remaining time to hear from anyone 
in the audience who would like to address the issues under 
discussion. We will not swear you in, but we will ask you to 
sign one of the forms available in the back so the court 
reporter will have you name and we will know where to send the 
transcript.
    So after the panel concludes and we have asked the 
questions, we will invite anyone who would like to make some 
comments. And we will see first, before I figure out how much 
time you have, how many people would like that opportunity.
    So let me administer the oath, invite all of you, please, 
to stand and we will swear you in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all of our witnesses 
responded in the affirmative. Let me say that it is a practice 
of the Government Reform Committee, being an investigative 
committee, that we swear all our witnesses in. I only chickened 
out once when Senator Bird came to the committee and I did not 
swear him in. But that is the only one who I have not sworn in. 
All other Senators and Congressmen have.
    But it is a privilege to be here today and it is a 
privilege to have your testimony and we expect that we will 
learn a good deal--I certainly will--and I thank you all for 
participating and we are going to go right down the row.
    This is what we are going to do, your statements have been, 
true to the request, fairly concise. I am going to have the 
clock on for 5 minutes. If you go over 5 minutes, I am going to 
roll it over again and I do not think any of you would go the 
full 10. So I cannot even begin to say if you went to 10 what 
would happen. [Laughter.]
    So, 5 minutes and you will see a red light and then I will 
flip it to 5 again.
    Colonel Thompson, you have the floor.

STATEMENTS OF LT. COL. EARLE R. THOMPSON, USAF, COMMANDER, 347 
 RESCUE WING, DET 1 & AVON PARK AFR, MACDILL AFB, FLORIDA; LT. 
   COL. CHARLES GOLDEN, OPERATIONS AND PLAN OFFICER, FLORIDA 
  NATIONAL GUARD, CAMP BLANDING, STARK, FL; RONALD J. LISZT, 
ACTING ASSISTANT AIR TRAFFIC DIVISION MANAGER, SOUTHERN REGION, 
    FEDERAL AVIATION ADMINISTRATION; STEVE HANDLEY, RANCHER/
     COUNCILMAN, CITY OF AVON PARK, FL; CURT OLSEN, TIMBER 
 MANAGEMENT OPERATIONS, AVON PARK AIR FORCE RANGE, AVON PARK, 
     FL; AND DALE LANDRESS, WARDEN, AVON PARK CORRECTIONAL 
                   INSTITUTION, AVON PARK, FL

    Lt. Col. Thompson. Good morning, Mr. Chairman, Congressman 
Putnam. Thank you for the opportunity today to speak to you on 
the unique challenges we have here at Avon Park Air Force Range 
in managing our ranges and the airspace that we also feel is 
very vital to the Air Force's combat readiness.
    Maintaining access to these ranges and the airspace is very 
important to us if we are to continue building the combat-ready 
forces to decisively engage our adversaries. Combat and combat 
support units from all services in the Department of Defense, 
including the U.S. Coast Guard, utilize Avon Park Air Force 
Range for readiness training activities. Additionally, we also 
support public use and recreation activities on our range.
    As you mentioned, we are uniquely positioned to allow 
access from many avenues, both from the Gulf of Mexico and the 
Atlantic, not to mention the land access that we have. Our 
range is comprised of about 106,000 acres and we have got 
vertical spaces that we can extend up to 31,000 feet when we 
work closely with the FAA. The dimensions of our range permit 
the weapons employment tactics driven from our lessons that we 
learned in Desert Storm and Operation Allied Force and the new 
standoff weapons technology that is emerging today. Our range 
has the space to allow those weapons to be utilized out here. 
Avon Park Range personnel work closely with other users of the 
airspace to deconflict range airspace usage with other 
competing demands. We also work real time with the Miami Center 
to ensure that airspace is available to airlines and the public 
as much as possible. We have had this coordination center with 
Miami Center in place for a number of years and to date our 
efforts have been very good in that regard.
    Our ability to modify our range and airspace to accommodate 
new training needs to be ensured. However, the legal and 
procedural requirements are becoming very complicated and time-
consuming for us to do that. One item that needs to be 
monitored closely, we feel, is the potential for portions of 
the range to be designated as critical habitat under the 
Endangered Species Act. When critical habitat is designated we 
are required to consult with the relevant regulatory agency to 
make sure that any changes in our range activities do not 
adversely affect the modification of the critical habitat area. 
The key to addressing those critical habitat issues is to have 
the adequate science and good communication in place and have 
our good relationships that we currently have with our 
neighbors and regulators. And that will enable us to develop 
cooperative strategies that allow us still to accomplish our 
mission.
    At Avon Park Air Force Range, we have the good fortune to 
have sufficient area around us that protects us from 
encroachment concerns, but we do have a few challenges in this 
area. We have worked very hard to mitigate community concerns 
by developing resolutions that resolve the conflict while 
ensuring good access to our range. As an example, one area just 
to the north of us that has seen quite a bit of development, 
had a bombing pattern that overflew a housing area. Some of the 
individuals in that area complained about the noise and because 
of this, we modified our pattern at no loss to training and we 
have alleviated all of those noise issues in that area.
    Another issue is the large amount of wetlands on Avon Park 
Air Force Range and we are also home to 12 endangered species. 
By entering into inter-agency consultation processes, proposed 
range modifications are harmonized to protect those wetlands 
and the endangered species. Our installation has implemented a 
comprehensive fire management program that minimizes our change 
of having fire losses. We do have the fires that we saw today, 
this morning, that happen just from lightning strikes out 
there, but our efforts there have made that minimal.
    Cooperative efforts with the State have also been very 
successful. Large tracts of land to the east and west of our 
range have been acquired by the State of Florida to serve as 
conservation lands. And they also at this time are studying the 
feasibility of acquiring property to the northern boundary that 
will help us with future encroachment issues to the north. The 
State of Florida, we feel, has been very proactive in this 
regard and continues to help us.
    Another issue is the range operations with unexploded 
ordnance. We have been in operation since World War II in one 
form or another and have a wide variety of munitions that have 
been employed on the range. Air Combat Command has got a very 
comprehensive set of policy directives that will ensure our 
long-term sustainability and safety of personnel on the range. 
We have a range residue removal contract that last year--or 
this year in fiscal 2001, ACC budgeted $230,000 to recycle and 
safe all of our training sub munitions in the range's holding 
areas. The Defense Reutilization and Management Office we are 
working with to remove about 1.5--between 1.5 and 1.8 million 
pounds of residue from the range. Unfortunately, a lot of that 
effort is funded through our operations and training budget, 
and that decreases other training opportunities that we would 
have.
    In summary, maintaining our edge in air combat is directly 
linked to robust training capabilities and those capabilities 
depend upon continued access to the range and airspace. Avon 
Park Air Force Range serves our warfighters well. We need to 
continue to work closely with the community to ensure that we 
have the operational flexibility, efficiency and realism of 
readiness training on this range, while minimizing the impacts 
on the mission that affect
the community and the environment. Your kind consideration of 
these comments and your interest in Avon Park Air Force Range 
is deeply appreciated. Thank you for the opportunity to speak 
today.
    Mr. Shays. Thank you, Colonel.
    Colonel Golden.
    [The prepared statement of Lt. Col. Thompson follows:]
    [GRAPHIC] [TIFF OMITTED] T1854.005
    
    [GRAPHIC] [TIFF OMITTED] T1854.006
    
    [GRAPHIC] [TIFF OMITTED] T1854.007
    
    [GRAPHIC] [TIFF OMITTED] T1854.008
    
    Lt. Col. Golden. Good morning, Mr. Chairman, Mr. Putnam.
    Sir, I would like to let my written statement serve as my 
opening statement here today.
    The only caveat being that Florida National Guard considers 
Avon Park Bombing Range a strategic asset for us, primarily 
because of the distance that our units would have to travel to 
the only other facility in north Florida at Camp Blanding. To 
us, the viability of Avon Park in the future is very distinct 
in our needs.
    That is all I have to say, sir.
    Mr. Shays. Thank you, Colonel.
    Mr. Liszt, welcome. Your mic is on.
    [The prepared statement of Lt. Col. Golden follows:]
    [GRAPHIC] [TIFF OMITTED] T1854.009
    
    [GRAPHIC] [TIFF OMITTED] T1854.010
    
    Mr. Liszt. Chairman Shays and Congressman Putnam, thank you 
for the opportunity to appear before you today on behalf of 
Administrator Garvey to discuss access to airspace issues 
relevant to military operations in general and Avon Park Air 
Force Range in particular.
    Mr. Shays. Mr. Liszt, I am just going to ask a question--
can you hear in the back?
    Mr. Liszt. I would like to briefly outline how the FAA and 
the military services work together to manage our 
responsibilities in a way that affords the most safe and 
efficient use of the national airspace system for both military 
and civilian aircraft.
    The FAA is the single manager of the airspace in the United 
States. Our primary mission and responsibility is to operate a 
common system of air traffic control and navigation for both 
civil and military aircraft, while maintaining the highest 
standards of safety. Our fundamental charter from Congress 
includes direction to give full consideration to the 
requirements of national defense as well as commercial and 
general aviation, a direction that we take very seriously. We 
have a close day-to-day working relationship with the armed 
services, aided by the presence of military personnel who work 
along with us in FAA offices both at Washington headquarters 
and in most regions of the country. These military personnel 
represent their individual services--Army, Navy, Marines and 
Air Force--at working group level meetings in order to ensure 
that their interests and perspective are known and considered 
by the FAA. And vice versa, FAA personnel are stationed at 
important military commands to ensure that the FAA interests 
are taken into account by the Department of Defense. At a more 
senior level, DOD has established the Policy Board on Federal 
Aviation as its highest level conduit to the FAA to discuss and 
dispose of matters of mutual concern and interest. Currently 
the Board is headed by a former FAA official. We find that this 
approach--to have both liaison representatives at a working, 
staff level, as well as a senior policy board--promotes a very 
cooperative and successful working relationship between the FAA 
and DOD.
    One of the primary ways we aid the military in 
accomplishing their national defense mission is to designate 
airspace for military training and testing. We do this by 
identifying what is known as special use airspace to 
accommodate military activity. By designating this airspace, it 
serves to protect other users of the airspace system--for 
example, commercial airlines and general aviation--and provides 
for safe and orderly operations within the national airspace 
system between civil and military users. DOD submits proposals 
to establish or modify special use airspace based on its 
mission requirements. Throughout the United States and off our 
coasts, there are over 900 special use airspace designations. 
Some designations are more restrictive than others. In 
reviewing a request for a special use airspace, we present the 
proposal to the public for comment and complete an aeronautical 
study, which assesses the impact of the designation on other 
users of the airspace. Under a memorandum of understanding 
between the FAA and DOD, DOD is the lead agency for required 
environmental reviews and assessments for proposals it 
initiates. We then make a decision about the designation after 
considering national defense requirements together with the 
needs of other users.
    With regard to the Avon Park Air Force Range, a portion of 
its airspace has been designated as restricted special use 
airspace. The current designation has been in place since 1963. 
The restricted category means that civil flights, while not 
wholly prohibited, are subject to restrictions at certain times 
due to the hazardous activities by military flights or ground 
operations.
    In establishing the special use airspace designations, it 
is our policy to promote joint use of the special use airspace 
as much as possible, allowing for use by civil aircraft when it 
is needed for military missions. We also subdivide or stratify 
the special use airspace in order to enhance joint use by 
military and civil aircraft. This approach enables us to make 
the most efficient use of the national airspace system while 
accommodating national defense requirements. For example, at 
Avon Park, several changes have been made over the years 
concerning the times of military use and subdivision of the 
airspace resulting in better access by civilian aircraft to the 
otherwise restricted space. The interface between the military 
and civilian use of the airspace surrounding Avon Park is a 
good example of how both types of operations can be 
accommodated safely and efficiently.
    Congress has directed us, along with DOD, to build on this 
joint use of special use airspace to develop a system to share 
information about the near real time use of such airspace. This 
will enable greater access to areas that otherwise would be 
restricted for large spans of time. To this end, DOD is 
developing the Military Airspace Management System while the 
FAA has deployed the Special Use Airspace Management System 
that will provide more timely information to users. For 
example, the designated hours of restriction for the special 
use airspace at Avon Park extend for most of the day Monday 
through Friday. The practice in the past has been that if there 
are no planned military operations for the entire period, the 
special use airspace is made available for civil aircraft use. 
With better near real time information available through these 
new data systems about what military operations are actually 
taking place on a particular day or part of the day or even 
hour of the day, DOD and FAA will be able to adjust access to 
the space accordingly.
    In summary, the FAA and DOD have a successful partnership 
in making sure the efficient and safe operation of the national 
airspace system accommodates both military and civilian uses. I 
assure you that the FAA and DOD will continue to work hard on a 
day-to-day basis to coordinate our respective missions and 
responsibilities. This will further enhance military training 
necessary for our national defense and access for commercial 
and general aviation to the national airspace system.
    Mr. Chairman, that concludes my remarks. I will be happy to 
answer any questions you may have.
    Mr. Shays. Thank you, Mr. Liszt.
    Mr. Handley, you are going to be recognized next for your 
statement. I am going to encourage you to put the mic closer. 
We will have your mics off for now. Thank you. Wonderful to 
have you here.
    [The prepared statement of Mr. Liszt follows:]
    [GRAPHIC] [TIFF OMITTED] T1854.011
    
    [GRAPHIC] [TIFF OMITTED] T1854.012
    
    [GRAPHIC] [TIFF OMITTED] T1854.013
    
    [GRAPHIC] [TIFF OMITTED] T1854.014
    
    Mr. Handley. Thank you, Mr. Chairman, Congressman Putnam; 
thank you for allowing me to testify today.
    Today I am wearing two hats. I am a cattle lessee on the 
bombing range and have been for 20 years. I worked for and with 
other cattle lessees for 5 to 7 years prior to being a cattle 
lessee myself here.
    If you would accept my written statement.
    Mr. Shays. We will do that.
    Mr. Handley. And also if I could enter into testimony a 
tape produced by the Florida Department of Agriculture, and a 
lot of the footage was shot here on the bombing range on 
grazing public lands.
    Mr. Shays. Without objection, we will include that in the 
record.
    Mr. Handley. Thank you.
    Also, I would like to say that I have been a partner as 
well as other people, other lessees on this range for the 
entire time that there has been cattle on the range. We have a 
very close working relationship with the military. We have good 
procedures in place for our safe entrance and exit of the 
military training exercise areas. I currently have a lease on 
one of the ranges where ordnance is delivered, and I graze that 
range. In the past 20 years, there have been very few incidents 
that have not been able to be resolved and I would like to say 
that we have been good stewards. The environmental regulations, 
in my opinion have been exemplary and they have followed--the 
Air Force has followed everything and we have been a partner 
with them.
    Changing hats, as a city councilman of Avon Park, I would 
like to say that if we have a change in mission at the range, 
then I would hope it would help improve our economic 
development and possibly increase job opportunities for the 
citizens of Avon Park and local communities.
    Thank you very much for your time and thank you for having 
me.
    Mr. Shays. Thank you, Mr. Handley, very much.
    Mr. Olsen. And we are going to move that mic over. Is that 
still on? There we go.
    [The prepared statement of Mr. Handley follows:]
    [GRAPHIC] [TIFF OMITTED] T1854.015
    
    Mr. Olsen. Good afternoon, ladies and gentlemen and Members 
of Congress. I am honored to have this opportunity to speak 
before this congressional hearing. My name is Curt Olsen and I 
am the Supervisory Forester of the Forest Management section at 
the Avon Park Air Force Range and have been at this 
installation for over 24 years.
    Mr. Shays. Wow.
    Mr. Olsen. Although I primarily deal with forest management 
issues, I have a good overall working knowledge regarding most 
aspects of the Environmental Flight management.
    Avon Park Air Force Range has a long history of natural 
resources management. Since the early 1950's, the property has 
been leased for cattle grazing. In 1952, the Air Force signed a 
cooperative agreement with the State of Florida allowing for 
public access for recreational purposes. Since that time, the 
natural resources program has evolved into a multi-disciplinary 
program involving programs including forest management, range 
management, outdoor recreation, wildlife and fire management.
    Approximately one half of the installation is occupied with 
threatened or endangered species or is potential habitat for 
these species. Management by the Environmental Flight has 
protected the natural habitat with 54,000 acres identified as 
being in outstanding condition. In fact, 50 percent of the 
actual bombing impact areas are considered to be in this 
condition, suggesting that military activities have not 
historically degraded environmental quality.
    The three revenue generating programs--these are forest 
management, outdoor recreation and range management--provide a 
yearly income back to the Air Force of approximately $800,000. 
The funds are used to support employees' salaries, scientific 
research, prescribed burning, wildfire protection, road 
maintenance, construction and maintenance of boundary and 
impact area fences, as well as the purchase and maintenance of 
vehicles and heavy equipment.
    With many State and Federal threatened and endangered 
species, wetlands, rare habitats, high public recreational use, 
commercial forestry, cattle grazing and a military mission, 
there is potential for conflicts.
    The program managers of Environmental Flight work together 
to develop a natural resources program that achieves multiple 
objectives with emphasis on sustaining and enhancing the 
military mission.
    Our adaptive and proactive management of the property has 
greatly benefited the Air Force by demonstrating that we are 
good stewards of the property and at the same time provide 
military training necessary for our national defense.
    Over 20 years ago, the State of Florida developed a land 
acquisition program to purchase environmentally sensitive 
lands. The Avon Park Air Force Range was identified as a 
critical hot spot of regional biodiversity and the centerpiece 
for land acquisition in south central Florida. Substantial 
properties on our eastern and western boundaries have been 
acquired by the State as conservation lands, while much of the 
property on our north boundary is currently under consideration 
for land acquisition.
    Due to the fast rate of growth Florida is experiencing, 
with these adjoining conservation purchases, Avon Park Air 
Force Range could have potentially been subjected to increasing 
encroachment that could ultimately impact military use of the 
property.
    The Environmental Flight prescribe-burns approximately 
25,000 acres of habitat every year. Without this management 
practice, the fuel loads would be extremely high and fires 
started from military missions would be much more frequent and 
harder to suppress. There would also be a greater chance of 
fires getting out of control and spreading off the property. If 
this should happen, the Air Force could be held liable for such 
action. Prescribed burning is also necessary to protect the $20 
million of forest resources and to manage the fire adapted 
flora and fauna on the installation. Without fire, many of the 
environmental attributes that make Avon Park a unique ecosystem 
would eventually disappear.
    The primary goal of the Forest Management Section is to 
maintain a healthy forest in a way that benefits the ecological 
community and the Air Force. We provide direct benefit back to 
the Air Force by using funds generated from the sale of timber 
resources to support services that assist the military mission.
    Recently we removed timber from 10 different locations 
requested by the Army National Guard for training sites for 
their multiple launch rocket systems. For this fiscal year that 
we are in right now, we will produce a total of $430,000 from 
the sale of forest resources. After our expenses, we will 
generate a profit in excess of $173,000 of which 40 percent or 
almost $69,000, will be distributed back to Highlands County 
and Polk County to be used for public schools and roads.
    The Outdoor Recreation Program averages 40,000 public 
visitor days per year and generates approximately $250,000 in 
the sale of various permits. The program provides many 
recreational activities such as hunting, fishing, camping, 
hiking and bird watching, just to mention a few. The program 
supports the mission by providing law enforcement to control 
illegal trespass.
    The Range Management Program generates $147,000 from the 
lease of native pastureland for cattle grazing. The 
installation is divided into nine leases, each lease is divided 
into separate pastures and cattle are rotated according to 
guidelines determined by the rangeland specialist. Cattle 
grazing also helps control vegetation and fuel loads, thereby 
reducing the fire potential. Funds from this program are used 
to build and maintain boundary fences around the installation 
and, most importantly, along active impact areas.
    The Wildlife Management Program is responsible for managing 
and monitoring fauna population of both listed and non-listed 
species on the installation. The program also ensures that 
military training and other natural resources programs do not 
violate State or Federal law.
    In conclusion, the Avon Park Air Force Range is a unique 
military and environmental showcase. The Air Force has shown 
that through team work, military training can be conducted in 
an environmentally friendly manner.
    Finally, I would like to express my personal appreciation 
to the Operations Flight here on the range for their 
cooperation in managing this unique environment. Thank you.
    Mr. Shays. Thank you, Mr. Olsen.
    I was just thinking when you were mentioning bird watching, 
if I were out there, I would be looking for gators, not birds. 
[Laughter.]
    Mr. Landress.
    [The prepared statement of Mr. Olsen follows:]
    [GRAPHIC] [TIFF OMITTED] T1854.016
    
    [GRAPHIC] [TIFF OMITTED] T1854.017
    
    [GRAPHIC] [TIFF OMITTED] T1854.018
    
    [GRAPHIC] [TIFF OMITTED] T1854.019
    
    [GRAPHIC] [TIFF OMITTED] T1854.020
    
    [GRAPHIC] [TIFF OMITTED] T1854.021
    
    [GRAPHIC] [TIFF OMITTED] T1854.022
    
    Mr. Landress. Mr. Chairman, as one of the few remaining 
natives of Avon Park, I would like to welcome you to this area. 
We are certainly happy to have you and we look forward to our 
visit here.
    Mr. Shays. Now Mr. Landress, let us 'fess up. Your folks 
must have been from Michigan or Ohio, or Connecticut?
    Mr. Landress. Well, my folks were. [Laughter.]
    Mr. Shays. OK.
    Mr. Landress. I would like to express my sincere 
appreciation to this subcommittee and to Congressman Putnam for 
the invitation to testify concerning the interaction between 
Avon Park Correctional Institution and the Avon Park Air Force 
Range.
    Four months ago, I assumed the duties as Warden of our 
correctional facility. This is my third tour of duty as Warden 
of Avon Park Correctional Institution, having served during 
1985 to 1987 and 1993 to 1995. I have a good understanding and 
respect for the mission of our correctional facility as well as 
the mission of the Avon Park Air Force Range.
    During my time as warden at Avon Park Correctional 
Institution, I have had the opportunity to interact with four 
different base commanders, including Lieutenant Colonel Earle 
Thompson, Jr., the current commander. A spirit of cooperation 
and mutual respect has always existed between our agencies.
    For over 43 years, the Department of Corrections and the 
Air Force have coexisted as good neighbors and friends. We have 
shared resources and personnel to accomplish our missions. In 
the past, utilizing inmate labor, we have assisted the Air 
Force, the Department of Natural Resources in completing 
numerous projects. Additionally, our agency provides security 
at the entrance gate. Our officers man this post 24 hours a day 
7 days a week.
    In the 1950's, the Department of Corrections was facing an 
over-crowding problem. To alleviate this over-crowding, the 
Department searched the State for possible prisonsites, finally 
selecting the former Federal Bureau of Prison facility located 
at Avon Park Air Force Base. The Federal prison was active 
until 1953 when it was closed. Since the Bureau of Prisons 
still held the lease, the State of Florida subleased the 
property in 1957 and the Avon Park Correctional Institution 
began.
    For approximately 15 years, the State leased the property 
from the U.S. Government. In the early 1970's, the leased 
property was declared surplus and the U.S. Department of 
Health, Education and Welfare, donated 143 acres to the State 
of Florida to use as a State prison. Shortly thereafter, the 
State purchased an additional 455 acres from the Federal 
Government.
    In accepting the donated property, the State agreed to 
maintain the wastewater and potable water systems. It also 
agreed to provide road maintenance from the main gate through 
our property.
    Mr. Shays. Got a little work on that area. [Laughter.]
    Mr. Landress. I am going to address that shortly.
    Mr. Shays. OK.
    Mr. Landress. At one time, the State owned and maintained 
the electrical delivery system. Recently, we transferred 
ownership to the Peace River Electric Cooperative, who is now 
responsible for maintaining that system.
    It should be noted that the attorneys from the Department 
of Corrections and the Air Force have begun a dialog to 
determine the Department's obligation as a result of the 
Federal Government donating the property.
    Recently, Joel Anderson, our Department's Deputy Director 
of Administration and I met with Lieutenant Colonel Thompson to 
discuss several issues. At that time, Mr. Anderson indicated 
that our Department would set a priority to resurface the 
entrance road from the main gate through our property. In 
conversations with him a couple of days ago, he indicated that 
engineers have been hired to prepare bids and hopefully that 
process is moving along.
    The Avon Park Correctional Institution is a major facility 
of the Florida Department of Corrections. From 1957 to 1978, 
the institution housed over 700 minimum custody inmates in 18 
old dormitories which served as barracks during World War II. 
In 1977, a close custody unit was constructed to house 542 
inmates.
    In 1992, it became obvious to the Department that the 
antiquated buildings in the old unit had outlived their 
usefulness and a new facility was built and those were torn 
down.
    For the protection of the public, people who work here at 
the range and our own staff who life on the property, our 
perimeter is encompassed by a double fence with eight rolls of 
razor ribbon on the inside of the outer fence, two rolls on top 
of the inner fence and two perimeter alert systems; one a 
microphonics system which is on the fence which detects motion 
and then we have a microwave system between the fences. We also 
maintain armed roving patrols.
    There is currently one issue I think that all of us here 
would think would be a serious concern and that has to do with 
the bridge over Arbuckle Creek. We have discussed this issue 
with Congressman Putnam and this bridge is in a bad state of 
repair. Polk County technically owns the property, they provide 
minor repairs, but we are in an area that is away from Polk 
County. You have to come through Highlands County to get to 
this little nick of Polk County, but there is a lot of large 
semis, military vehicles, tankers. And one of these days, we 
are going to have a serious problem. I am not sure what this 
committee can do, but that problem needs to be addressed at 
some level.
    In conclusion, I believe the Air Force Range is a model for 
land utilization. I hope that the subcommittee will continue to 
support the mission of the Air Force, as they attempt to 
expand, and all the other government agencies who utilize the 
property, as well as the thousands of citizens who use the 
property for recreational purposes.
    I would like to thank you again for allowing me to share a 
few comments.
    [The prepared statement of Mr. Landress follows:]
    [GRAPHIC] [TIFF OMITTED] T1854.023
    
    [GRAPHIC] [TIFF OMITTED] T1854.024
    
    Mr. Shays. Thank you, Mr. Landress.
    Truth be told, this hearing is really a subterfuge to get 
us here to talk about making sure you maintain those roads 
well.
    Mr. Landress. Oh, I have been catching enough heat already, 
Congressman, I did not need you to come down here----
    Mr. Shays. I mean I heard the words ``set a priority,'' 
hopefully that process is moving along. I mean, those are 
dangerous words. I am teasing you.
    Mr. Landress. I know.
    Mr. Shays. At this time, the Chair would recognize Mr. 
Putnam and we will proceed to have questions.
    If you are curious, the way we do it back home when we have 
more Members, is we have a 5-minute rule for Members and we go 
to different Members. Sometimes we do the same rollover, 10 
minutes. But given that we are in friendly country here, we are 
turning off the clock now, Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman.
    I appreciate the testimony of the witnesses. You can tell 
that we are outside of the beltway when people let their 
written statements stand as the only thing that they feel like 
they need to say. We appreciate the brevity.
    Mr. Handley, as a city councilman--that is the hat that I 
would like you to put on for this question--the Department of 
Defense did an economic impact study for the range that 
estimates the economic impact on Highlands County to be nearly 
$70 million. Do you see that in the community? Do the merchants 
and businessmen feel the impact of the range and what is the 
sense of the neighborliness among the neighboring communities 
about the range?
    Mr. Handley. Traditionally, Congressman Putnam, Avon Park, 
the city of Avon Park, relied very heavily on the range when 
they were flying sorties every day from 8 until 10 p.m., and 
there was a lot of military people here. And the support in the 
community has been, in my opinion, great for the Avon Park Air 
Force Range and we look forward to continuing that and I think 
that it would be very beneficial to the local communities. And 
I think that it has--to Highlands County itself, yes, we 
welcome the activities.
    Mr. Putnam. Is there a standing advisory committee or 
community relations committee that meets on a frequent basis 
between the military officials and the surrounding communities? 
Is there a group of Chamber folks that meet on a routine basis 
to talk about the future of the range?
    Mr. Handley. I would have to defer that question to the 
colonel.
    Mr. Putnam. Colonel Thompson.
    Lt ColThompson. There is not, that I am aware of, sir, a 
standing committee with the local governing authorities. 
However, we do have a standing committee that deals with 
environmental issues that includes people from as far north as 
Lake Wales and down into Sebring. And we had our last meeting 
at the Sebring Airport Authority's facility. We make sure--and 
they kind of help us as a watchdog, if you will, to make sure 
that we are complying with all the environmental concerns we 
have here.
    Mr. Putnam. Mr. Olsen, I believe you stated in your 
testimony, but how much in outside revenue does the range 
generate through its environmental stewardship activities?
    Mr. Olsen. The total program generates about $800,000 from 
the three programs.
    Mr. Putnam. That is generated onsite.
    Mr. Olsen. On site, correct.
    Mr. Putnam. That is not Pentagon money, that is not DOD 
money.
    Mr. Olsen. No, that is exactly what is brought into--from 
the sale of timber, permits for hunting, fishing, camping, 
things like that and revenue we get like from Mr. Handley for 
leasing native lands for grazing.
    Mr. Putnam. And does all of that stay here or does it get 
sent back to Washington?
    Mr. Olsen. No, it does not get sent back to Washington. 
Every program is a little bit different how they deal with the 
money; but generally yes, the money does go back to the 
program.
    Mr. Putnam. So the money generated here through these 
multiple use management arrangements are put back into the 
property.
    Mr. Olsen. Generally speaking; yes, sir. They usually go 
back--in our case, they will go up to Langley Air Force Base or 
they are distributed for the next year's budget.
    Mr. Putnam. OK. Now Colonel Golden, the guardsmen who train 
here at the range, are they mostly from units that are from 
central and south Florida?
    Lt. Col. Golden. Yes, sir, pretty much.
    Mr. Putnam. So how much do they save in maintenance and gas 
and time if you are only dealing with a weekend training window 
by not having to drive to Camp Blanding?
    Lt. Col. Golden. Sir, depending on the location of the 
unit, if it is--particularly units that are located down in the 
Miami area, they save approximately--coming to Avon Park versus 
going to Camp Blanding--probably about 6 hours of windshield 
time. Of course the fuel consumption is of course a plus, but 
primarily the other thing that we really appreciate about being 
able to be down here is the fact that you do not have troops 
out driving on the road, that is additional safety problems 
that you have got too. So it is less wear and tear on the 
equipment and a lot more training time.
    Mr. Putnam. Thank you.
    Colonel Thompson, the range, as evidenced by the testimony, 
appears to have a good working relationship with its neighbors 
and with the different governmental entities that come into 
play when you are managing these types of encroachment issues. 
How have you been able to work on the airspace issue with the 
FAA and the surrounding airports? Where do you see that 
relationship heading?
    Lt. Col. Thompson. Well I think we have, as I previously 
stated, a very good relationship with the FAA and the local 
airports in the area. My deputy, Mr. Cutshell, has been the 
airspace manager for this area on the military side for quite 
awhile. He has a very good personal relationship with the 
people----
    Mr. Shays. Colonel, is your mic on?
    Lt. Col. Thompson. I believe it is.
    Mr. Shays. Just pull it a little closer.
    Lt. Col. Thompson. And that has allowed us to have this 
real time system we have when we utilize the range airspace. In 
addition, Mr. Mike Willingham down at the Sebring Airport, they 
are in the process of looking at possible expansion down there 
and possibly putting in an additional runway. Early on, they 
brought us into the planning process to discuss that with them 
because, depending on how they are going to lay out that 
particular runway could significantly have some impact on the 
southern portion of our range, in the MOA area, the military 
operating area to the south. But they had the foresight to 
bring us in early on that and make sure we address those issues 
before they get too far along in the planning process.
    Mr. Putnam. When you view the utilization of this range on 
a 365-day basis where are some areas where you can increase 
utilization, what types of training missions best fit this 
range's profile, and what impact do you think the potential 
closing of Vieques would have on the mission here?
    Lt. Col. Thompson. Well, as far as our training 
opportunities right now, as has been previously stated, I think 
Mr. Handley said it, when MacDill had an F-16 training base 
there, the range was much more utilized than it is now. There 
has been some additional units in the last few years that have 
shut down, most notably the fighter wing at Moody is no longer 
there, there is now a rescue wing there. And we are training 
with the rescue element there but we do not have the fighter 
sorties coming down here that we had previously. We have air 
time and range time right now that if the Navy were to enter 
into talks with us, we could certainly discuss with them and we 
are ready to discuss with them the opportunities for them to 
utilize our range and our airspace. It is just a matter of 
working out the details with them and as long as it fits in our 
range mission and our environmental concerns, we should be able 
to accommodate most of their training here.
    Mr. Putnam. Are you geographically situated for carrier-
based forces to train here?
    Lt. Col. Thompson. We feel we are, sir. They could set a 
carrier in the Atlantic or the Gulf of Mexico and access the 
range either through high level ingresses at altitude or we 
have approximately 14 low level routes that terminate on the 
Avon Park Air Force Range and they could enter it that way. So 
we do not feel coming in from either coast would be a problem 
for them.
    Mr. Putnam. Thank you, Colonel.
    Mr. Chairman, I yield back.
    Mr. Shays. I thank the gentleman. I have a number of 
questions that I would like to ask. I would like to first start 
with you, Colonel Thompson and ask, the utilization of the 
range right now, can you quantify it? Is it used 10 percent of 
the time, is it used--you know, how would you quantify the 
usage right now?
    Lt. Col. Thompson. It is kind of difficult to do that, sir. 
I will give you a round-about answer on that.
    Mr. Shays. OK.
    Lt. Col. Thompson. In 1992, when we closed the F-16 
training unit at MacDill, the utilization went down 
tremendously on this range. And that is what Air Combat Command 
kind of looks at when they talk about the utilization on this 
range. But what you have got to take into account there also is 
post-Desert Storm, we were in a drawdown mode so throughout the 
combat air forces in the Air Force, there has been a 
utilization drop in all the ranges. This range had a fairly 
dramatic drop and I would say we are probably operating now 
about 15 to 20 percent of the level we were operating at when 
MacDill had a training unit there. I may be off on that, but 
that is off the top of my head.
    Mr. Shays. I tell people that being a Member of Congress is 
like being asked to go to a large university, take every course 
and get a passing grade. Every day we learn new things and one 
of the things that I had not thought of, we are over-utilized 
in the number of bases that we have and that is a waste of 
resources. But my sense is that if we come to grips with that, 
then there are more resources for the places that we have open, 
but what you are saying to me is that what happens to 
neighboring bases obviously impact you in this facility.
    Lt. Col. Thompson. Yes, sir.
    Mr. Shays. But one of the things about this facility that 
is somewhat unique is that you do have a fairly large footprint 
and you do not have some of the encroachment problems that 
exist elsewhere. So I did not know what to expect, I did not 
know if coming down here we would hear a lot of cautious words 
about let us be careful what we do here.
    The message that seems to be pretty loud and clear from the 
panel and even from people I have spoken with privately, this 
is an under-utilized facility, it could be used better and you 
would like to see that happen.
    During certain times, does it get pretty intense here? I 
mean are there--when you have a training activity going on, is 
the mood in the area a little different?
    Lt. Col. Thompson. Yes, sir. In October, we are going to 
have a large combat search and rescue training exercise here 
that will basically take over the range for 2 weeks. It will be 
not 24 hours a day, but it will run much more than our normal 
range schedule. We have those kind of things that happen 
occasionally, we host National Guard units occasionally. Part 
of my unit is a deployed unit complex at MacDill. We can bring 
a fighter unit into our ramp over at MacDill and allow them to 
use the Whiskey 168, which is a warning area over the Gulf to 
the west of MacDill and then also they can turn around and come 
15 minutes in this direction and utilize Avon Park Range. So we 
really feel like we have got a one stop shop in that regard for 
training.
    But right now, those would be the exceptions. We have the 
opportunity to increase that kind of training here.
    Mr. Shays. Going to you, Mr. Landress, you used a word that 
concerned me but was a very honest word and it was the word 
``surplus'' and then the State basically stepped in to take 
advantage of this ``surplus'' space. It seems to me that there 
is a compatible use here. I mean the prison system does appear 
to work in harmony with the other needs, as obviously the 
prison system is far enough away.
    But my sense is that over time, we are going to consider 
range space like this with a large footprint a very valued 
place and we are not going to want to be reckless in terms of 
calling something surplus, even if at present it seems to be 
under-utilized. Even if this system was not fully utilized for 
a long time, it represents a reserve that we should, I think, 
hopefully protect and I hope that the military does not begin 
to see edges of it as surplus, which kinds of gets me to the 
whole issue of the FAA.
    If Sebring is expanded as it will be, and other local 
airports, what are the implications of how that will impact the 
freedom of the military to do their exercises without too much 
restraint in coordination with FAA?
    Mr. Liszt. I think the first thing the Colonel spoke to was 
the runway configuration, if it is designated properly. And 
predominantly in Florida, as most of us know, the winds are 
southeast-northwest in thunderstorm activity and fronts. So if 
they correctly align----
    Mr. Shays. Just a little louder.
    Mr. Liszt. If they correct align those runways, they will 
not touch the lateral limits of the current designated space.
    Mr. Shays. Because we are basically having aircraft come in 
directly in line with the----
    Mr. Liszt. And it will permit you a downwind on the other 
side of the airport, away from the range.
    Mr. Shays. But the position of the airfield landing area is 
extraordinarily, is your term.
    Mr. Liszt. The alignment, yes.
    Mr. Shays. The alignment.
    Mr. Liszt. Yes, sir.
    Mr. Shays. In Connecticut, literally we try to fly them--
when they come into LaGuardia, we bank them to come over the 
Sound, but straight alignment, they come right along the 
coastal towns. Is this something--let me come back to you, 
Colonel Thompson--is this something that the Air Force is going 
to pay close attention to or is this something that could 
happen, in that before we know it, we are put at a 
disadvantage?
    Lt. Col. Thompson. Well, I believe that in Sebring's 
instance, they are out at the forefront of this issue. They are 
a number of years yet from breaking ground and pouring concrete 
for a new runway, but early on, they wanted to make sure that 
we were not going to have encroachment issues and that our 
training would not be affected by instrument approaches into 
their airfield.
    Mr. Shays. We have Colonel Wheeless, who is here, who is 
your supervisor, he has nine of these facilities to manage. 
Colonel Wheeless, I would just like it if you could just stand 
up so people could see you here, if anyone wants to ask you a 
question.
    [Colonel Wheeless rises.]
    Mr. Shays. Thank you.
    Colonel, I am just concerned that, you know, you get a 
promotion, you go somewhere else, Colonel Wheeless goes to 
other activities. Is there something that is written down that 
says to your replacement or Colonel Wheeless' replacement, you 
know, if Sebring is expanded, this is something that we have to 
pay close attention to, or is it so obvious that I do not even 
need to be concerned about it?
    Lt. Col. Thompson. That is a valid concern, sir. The beauty 
of the operation here at Avon Park Range, out of the whole 
unit, there are only four military members in my Command. 
Everybody else is Civil Service, and so we have a continuity 
here at this range. I have got people here in the employ of 
Avon Park Range that have been here, like Mr. Olsen, for 24 
years or longer and so these issues will not easily get 
dropped.
    Mr. Shays. Colonel Golden, you said something that would be 
obvious to someone else, but I am--our committee is kind of 
getting into this issue. You talked about travel time. In my 
simple mind, I just think of the amount of time it takes a 
plane to get here. Describe the other support that you need 
to--I guess they take the highway here?
    Lt. Col. Golden. Yes, sir. And it is troops not only from 
the southern part of the State but also from the Orlando area 
all the way over to Tampa. Just the savings in dollars to the 
taxpayers that we do not have to spend using additional fuel 
requirements, maintenance costs on vehicles is critical to us.
    Mr. Shays. Is your mic on?
    Lt. Col. Golden. Yes, sir, I believe so. Without pulling 
the table off----
    Mr. Shays. It will not go any further--good judgment.
    Lt. Col. Golden. Yes, sir. The other thing, sir, with the 
Florida Guard, what I want to see happen with Avon Park over 
the years is that I believe they are in a unique position, just 
because of the size of the base. I have got 20 something years 
in combined arms stuff and Colonel Thompson has got a nasty 
little secret, he was actually in the Army before he got in the 
Air Force, so--[laughter]--we still treat him the same, but----
    Mr. Shays. Well, it ain't a secret now, is it? [Laughter.]
    Lt. Col. Golden. I get that $20 from him later--but for us, 
it is going to remain critical because of just the cost of the 
budget, the budget is downsizing. And the other part is if we 
go through another round of base closures----
    Mr. Shays. We will go through another round, we have to.
    Lt. Col. Golden. Yes, sir, in 2003. When you reduce the 
number of available sites to train, and you do not reduce the 
force structure or size, you have to have some place to go to 
train because it becomes compacted. And I think Avon Park in 
the future is going to have an opportunity to take some of that 
compaction and spread it out down here for not just the Navy or 
the Air Force, but for all branches. You should see an increase 
in the number of just combined branches of the service coming 
here to train all the time.
    Mr. Shays. One thing that is fairly clear to me, that even 
when you close down some bases and you allow the State or the 
local community to consider it surplus property that they 
should purchase, we do not want to do that to our ranges, 
because we may come back--even if a range--and this is not just 
a hearing on what happens at Avon Park, it is a hearing about 
what happens in all our potential ranges. But if some range is 
ultimately so under-utilized as to not be deemed cost effective 
to keep it open, I think Congress--and this is something I 
would like the staff to take a good look at--that should be 
warehoused space because we may come back years later and say, 
you know, we need this place.
    One of the things that I think that Adam can share with you 
as well as I can, the longer we are in this position, the more 
people in the military, active and the Reserves and the 
National Guard and veterans, the more sensitized we become to 
the extraordinary gratitude we feel for our military and for 
their service. But the obligation that we have to make sure 
they never go into battle without superior equipment, the best 
training in the world and the most realistic training. And to 
give them superior equipment without the training is just a 
dereliction of our duty. So we just need to make sure we have 
the sites.
    I would love to just ask you, Mr. Handley--I feel a little 
more affinity toward you only because you are a politician--
[laughter]--you may not want to acknowledge that in this 
community, but you are, be proud of it.
    Describe to me, if you would--not to bring controversy in 
here, but there must be constituents who say, you know, I like 
the open territory, I like the hunting, I like the fishing, I 
like the open space, I do not appreciate the noise or I am 
concerned that this could become much more active. They like it 
the way it is. Are there constituents that you have like that 
and what is the tradeoff that you see happening here?
    Mr. Handley. There are constituents who--and property 
owners on the north and south side and friends of mine, who 
graze cattle, do business with Avon Park, live in communities 
adjoining, under the flight patterns, and mostly, in my 
opinion, the people who have been here for a number of years 
appreciate the military and they would like for the land use 
regulations to remain the same, they would like to see 
continued public recreation, they would like to see continued 
hunting, research and those things. And as I wrote in my 
statement, the flight annoyance and noise associated with 
military training versus the assurance of a well-trained and 
competent military, I think most of the constituents in this 
area will choose a well-trained military to keep our great 
country free. You have, in my opinion, a very loyal bunch of 
people around Avon Park and in Highlands County.
    Mr. Shays. So there is some pride that this facility exists 
here and that they are contributing very clearly to our 
national defense?
    Mr. Handley. Yes, sir, that is my opinion.
    Mr. Shays. One of the places we are going to later is to 
Vieques and I have been there once. It is an extraordinarily 
important site because it is the one area on the east coast 
where we can do land assault, sea assault as well as air 
assault, and even from the sea, the use of submarines. So it is 
an ideal site and it has been heartbreaking for me to have this 
become such a nationalistic issue on the part of our friends in 
Puerto Rico, who do not realize what a valued site this is and 
the pride they should feel that they are in fact contributing 
to the national defense. All of our pilots who went to Vietnam 
from the east coast trained at that facility. So I am grateful 
to know that you have a sense that your constituents have a 
sense of pride about this facility.
    Mr. Handley. Yes, sir. The only thing that some of the 
constituents have relayed to me is occasionally there will be 
some ordnance that falls off one of these airplanes and maybe 
the Colonel can address that because he is more attuned to the 
type of ordnance that these planes carry, but occasionally a 
piece of ordnance will fall off on private property and most of 
the times, the ordnance that is currently used on the bombing 
range is not HE or high explosive.
    If the proposed mission is for the use of high explosive 
ordnance, then the constituency of Highlands County would 
probably have a different opinion.
    Mr. Shays. See, what happened in Vieques was you had a 
young man who was killed. The implication was that he was in 
the village 9 miles away, that is the way the press reported 
it. He was actually on the observationsite and there were two 
planes and, as you obviously, most people know, they cannot go 
after the target until they have been cleared from the 
observationsite. But the two planes cleared, which was a 
breaking of the policy, without the observation deck knowing. 
So they cleared the first plane and the second plane was 
targeted right on the observationsite, thinking he was cleared.
    But any one tragedy can change the dynamics of acceptance. 
So a bomb landing on a farmer's field or a rancher's field, 
would not be, with high explosives, too appreciated.
    I am going to come back to you in 1 second. Let me just ask 
you this question though. I have often wondered why you would 
even need to have a high explosive. I mean, other than--it 
would seem to me that as long as they know they have hit the 
mark, as long as they are using a weapon that is totally 
balanced the way a real weapon--a total high explosive weapon--
is balanced with all the dynamics, why would you need at times 
to practice with extraordinarily high explosives?
    Lt. Col. Thompson. You can practice with inert weapons, 
concrete filled bombs that provide just about all of the 
training, but it is like going out and hunting. Shooting a 
blank is not going to get you anything.
    Mr. Shays. But in other words, so you have some explosive 
to it, but--I do understand that. But as long as you have a 
minimal amount to show the explosion, to show that it 
happened----
    Lt. Col. Thompson. There are some planning considerations 
that go into planning actual employment of live weapons, 
especially as you employ at lower altitudes that need to be 
practiced from time to time.
    Mr. Shays. Are you saying even just loading the plane----
    Lt. Col. Thompson. Not only for the pilots but for the 
weaponeers, the guys who actually physically buildup the bombs 
and the fuses and then load them onto the aircraft. There is 
training that is involved there that they cannot receive as 
realistically with inert ordnance.
    Mr. Shays. Are you saying that even for a pilot to have an 
inert ordnance, the feeling they have versus having a very high 
explosive weapon on board is----
    Lt. Col. Thompson. It is different. You know that you are 
not going to hurt yourself past a certain altitude, you do not 
know that, you know that you have to completely honor the 
explosive capability of that weapon and the potential for 
ricochets also when it explodes. And it brings a certain 
different sense when you are dropping high explosive weapons.
    Right now in Air Combat Command, we only require our pilots 
in single seat business anyway, that I am most familiar with, 
to drop high explosive weapons once a year. And generally we 
train with inert ordnance other than that.
    Mr. Shays. So you are saying at least once a year, pilots 
need to experience what it is like to use the actual weapon 
with the detonation capability that exists in the actual 
weapon.
    Lt. Col. Thompson. Yes, sir, that would be my experience.
    Mr. Shays. I hear you. Colonel Golden, anything to add to 
that?
    Lt. Col. Golden. Yes, sir. In fact, today, our Apache 
Battalion out of Craig Field in Jacksonville will be down here 
today firing high explosives with Hellfire missiles, which is 
anti-armory. And it is--right now, this is the only place in 
the State of Florida that we can do it.
    Mr. Shays. I know how we could raise a lot of money. Just 
allow the public to watch it. High liability, but it would be 
darned interesting.
    Lt. Col. Golden. But you just want to be as far away from 
it as you can with binoculars.
    Mr. Shays. I understand, I understand.
    OK, thank you for your patience, Mr. Putnam, you have the 
floor.
    Mr. Putnam. Thank you, Mr. Chairman.
    Mr. Olsen, as we have conducted these hearings about ranges 
and facilities all over the country, and really all over the 
world, there are several issues that come up. When we are 
talking about international facilities in Puerto Rico, Okinawa, 
some parts of Japan, there is just a certain level of 
nationalism and anti-Americanism and other issues to deal with 
when we are on other people's soil. On American soil, you have 
issues of encroachment. Subdivisions who buildup over time, new 
people move in, do not appreciate the noise, do not have the 
same sense of community pride. And environmental regulations. 
The Marines have a substantial swatch of coastline on the 
Pacific coast of California at Camp Pendleton. They have to 
adjust their amphibious training maneuvers around the mating 
habits of a particular bird.
    You have testified that we have 40,000 user days at this 
range from sportsmen, world class Osceola turkey hunting, you 
manage a $20 million timber inventory and you generate $800,000 
a year in revenue from the leasing and the timber and related 
multiple use issues.
    Is it your--do you believe that those in any way detract 
from the primary mission of this facility of preparing soldiers 
and pilots for their mission in combat?
    Mr. Olsen. Generally speaking, I do not think it detracts 
from it much at all. I think we can accommodate all users out 
here and we can have the recreation, we can have the camping, 
hunting, fishing, timber operations and still have the military 
operations out here. The military needs to be compatible. In 
some situations where we do have some wetlands and they are 
extremely wet or we do have certain endangered species that, 
you know, maybe we do not need to train right here, but guess 
what, we can train over here. There are enough acres out here 
to where I think we can be compatible with all the different 
users out here, and sometimes they need maybe to adjust 
themselves and not just say well, that is the only place we can 
do it. Well, maybe there are some other places out there which 
are also compatible that we can also accommodate all parties. I 
think in most situations it is. I would say with my operation, 
I deal with forest management----
    Mr. Shays. Could the gentleman yield for just 1 second?
    Mr. Olsen. Certainly.
    Mr. Shays. I am unclear as to who your direct employer is. 
Is it the Air Force or is it the----
    Mr. Olsen. I am the Air Force; yes, sir. I am a civilian 
employee with the Air Force.
    Mr. Shays. OK.
    Mr. Olsen. I am in charge of the forest management program 
out here.
    Mr. Shays. OK.
    Mr. Olsen. Part of the Environmental Flight.
    My program, forest management, if not done properly, it can 
be extremely disruptive. We are able to come out here and 
manage timber resources, vital resources this country needs, 
and be compatible with the endangered species and the sensitive 
wetlands and things like that we have out here. You know, every 
year we will move out 800 trucks, anywhere between 70,000 to 
80,000 pounds of timber coming out. Plus we have large shears 
out there, skidders, and we are able to work with our botanist 
and the biologists and accommodate them, to satisfy them that 
we are not so-called stepping on their toes, on their little 
piece of the pie here that they have.
    Mr. Putnam. Of the 106,000 acres that comprise the range 56 
percent have been designated exemplary environmental condition 
by the Natural Areas Inventory?
    Mr. Olsen. That is correct.
    Mr. Putnam. The Natural Areas Inventory, that is a State 
program run through the preservation program.
    Mr. Olsen. That is correct.
    Mr. Putnam. That is not an arm of the Air Force, they have 
solid environmental credentials in making these evaluations.
    Mr. Olsen. We have them come out here and inventory our 
property. Same thing with the wetlands too, we hired 
contractors to come here and delineate all our wetlands on the 
property.
    Mr. Putnam. So even the areas that are routinely shelled, 
have Hellfire missiles shot at them, have inert bombs dropped 
on them, they still remain an exemplary environmental----
    Mr. Olsen. Well some of the areas. Now maybe where they are 
shooting the Hellfire missiles may not be, but a lot of the 
other habitat----
    Mr. Putnam. At least for a few weeks.
    Mr. Olsen. Some of our other habitats, we have 
grasshoppers, sparrows on the ranges, we have red cockaded 
woodpeckers, things like that, and they are able to exist in 
harmony with the ranges.
    Of course you have got to look at the ranges, the actual 
impact areas, what they actually drop on, is usually not that 
large. Most of it is just all buffered area in many situations. 
They do not bomb out here on 20,000 acres, they only use small 
little places where they actually--and most of the bombs are 
inert anyhow, the only ones are the Hellfires.
    Mr. Putnam. Could you elaborate on the larger area when you 
talk about the buffer zones, how many acres adjacent to the 
range are in some kind of a conservation management program and 
who manages those and how do they integrate with the flora and 
fauna at the range?
    Mr. Olsen. You mean outside the Air Force property or----
    Mr. Putnam. Yes, you have adjacent State forests and 
conservation areas. When you talk about the greater public 
lands area, how much area are we talking about?
    Mr. Olsen. I could not give you an exact figure off the top 
of my head. You know Avon Park Air Force Range is 106,000 
acres, so if you want to make comparisons to there, we are 
talking almost double that, maybe another 106,000-100,000 acres 
outside.
    Mr. Putnam. And those are all essentially State-owned 
property, either through Water Management or----
    Mr. Olsen. Water Management Districts or something like 
that. They have generally been purchased through Preservation 
2000 funds, most of them.
    Mr. Putnam. So the environmental footprint, the wildlife 
habitat areas, the wildlife corridor, is vastly greater even 
than 106,000 acres.
    Mr. Olsen. That is correct. That is what made Avon Park so 
significant, is because we had such a unique environmental 
community here. The big thing, what they are looking to do now 
is they want to expand, they want big large tracts of land. So 
purchasing everything around Avon Park became critical.
    Mr. Putnam. So would that be then a target for one of the 
State land purchasing programs? Do they have their eye on 
106,000 acre contiguous parcel in the middle of a ridge, scrub 
habitat?
    Mr. Olsen. If the Air Force decided to get rid of it, there 
would be people waiting in line. U.S. Fish & Wildlife Service 
would like to have it maybe, the State of Florida.
    Mr. Putnam. So there are those people out there then who 
would like to see the training component removed and make it an 
environmental reserve.
    Mr. Olsen. I should not say that, I think a lot of them 
just happen to leave it the way it is and let the Air Force do 
the management on it. Most regulatory agencies are extremely 
happy with the way we manage the property. If you read my 
report, we do not have them looking over our shoulder and 
critiquing our every movement. We hire a lot of outside 
contractors, local and U.S. Fish & Wildlife Service, we use 
Archibald Biological Station, we use these contractors to give 
us research data on these species we have out there. So we work 
in a team effort with that.
    Now we have unique situations, we may get some direct 
consultation with the U.S. Fish & Wildlife Service. This 
happened recently, 6 or 8 months ago, we had extreme wildfire 
out there in some red cockaded habitat and we had some of those 
people come down and I got together with the biologist and 
their biologist and we went out in the field and we looked at 
the impact this may have about possibly salvaging some of the 
wood, what we could take out, what we may want to plant back. 
So it is more of a cooperative effort. I have sort of heard 
from the agency that they would like Avon Park to stay the way 
it is, let the Air Force take care of it because you have the 
dollars to maintain it. You know, even if the Fish & Wildlife 
Service did get ahold of this place, a lot of times they just 
do not have the funds to manage it the way the Air Force is 
doing it.
    Mr. Putnam. Neither does the State.
    Mr. Handley, you mentioned a couple of potential impacts of 
the range, the noise factor and local economic development 
impact, jobs and things of that nature. Does the fact that 
there is these large buffer zones around the range mean that 
essentially for the long term, for the foreseeable future, 
Highlands County's noise issues would be mitigated by having 
those buffer zones around the range?
    Mr. Handley. I would say generally speaking, yes. But from 
the area south of us in Lorida, that is one of the low 
altitude--I believe that is one of the low altitude corridors. 
I know there are not a lot of people that live in Lorida, but 
you know, they are constituents.
    Mr. Putnam. I see a few of them out there.
    Mr. Olsen. Yeah, there are a few of them out there. 
Commissioner Stokes, one of our county commissioners, is here 
with us today and he might could address that issue more than I 
could. And our neighbors to the north along Highway 60 and one 
of the air corridors that go up over Lake Kissimmee is one of 
the low altitude corridors that approach the range.
    That is about really all I have to say.
    Mr. Putnam. Colonel Thompson, we hear a lot about these 
environmental concerns and the additional precautions and 
preparations that the base commanders have to take. You have an 
impressive stockpile of troop carriers out there for potential 
targets and F-4 shells and Sikorski helicopters. You take----
    Mr. Shays. That is very sensitive for me because we make 
Sikorski helicopters just outside my district and we just do 
not like to ever see them shot at. [Laughter.]
    Mr. Putnam. That is just one more they have to buy.
    Mr. Shays. Good point. Actually, we like it, we like it.
    Mr. Putnam. You have got to drain the fuel tanks, drain all 
the hydraulic fluid, drain all the oil plans out of these large 
pieces of equipment. How many manhours does it take to prepare 
a target to meet your environmental regulations and do you 
believe that the environmental restrictions placed on this 
mission are backed by sound science and are in an equilibrium?
    Lt. Col. Thompson. I think we proved that they are backed 
by sound science. It has cost us a shift in the way we operate 
in the last 15 years. We did not worry about hydraulic fluid 
leaking into the ground and things of that nature 15, 20 years 
ago. In addition to those things you have mentioned, we also 
have to remove the batteries from those and dispose of them, 
which is not a cheap operation. I would guess, and this is a 
guess because I have not physically watched them do it, but I 
would venture to say we probably spend close to 100 manhours 
per vehicle to prepare them to become a target out there. It 
takes a team of people to do that and it will take a couple of 
days to do it, so I could easily see 100 manhours per vehicle--
per target of that type, which is one of the reasons we are 
shifting toward some of our more environmentally safe targets, 
although we like the realism and will continue to use the 
excess personnel carriers and other things that we can get our 
hands on.
    Mr. Putnam. I know that members of the audience have heard 
about $600 toilet seats and $40 wrenches and $4000 hammers and 
things like that. Could you elaborate on ways that--we have 
heard from Mr. Olsen how you use multiple use management to 
generate the dollars to hire wildland fire fighters and 
biologists and things of that nature. On the targeting side, 
could you elaborate on some things that you all are doing to 
keep costs down, that are environmentally sound and are 
stretching out these ever-shrinking defense dollars?
    Lt. Col. Thompson. Well, obviously, first off, the targets 
that we have out there now, we try to utilize them as long as 
they remain viable targets and present a recognizable target in 
the area. And then and only then do we pull them off the range 
and then have to dispose of them as residue, which is another 
program in and of itself.
    But I have a supply person who works here in our 
organization, who I feel went above and beyond the call of duty 
and she found an avenue to allow us to obtain at no cost to the 
government some excess decommissioned, if you will, sea/land 
containers. And we are utilizing those now to build target 
arrays with. They were delivered here free of cost to us, the 
only cost we have had is some small painting costs to paint 
them to look proper and paint windows on them and then we 
bought some premade roof trusses and threw some 4 by 8 sheets 
of plywood on top of that to make roofs out of them and we have 
been able to configure them in different shapes to build an 
urban target array on one of our ranges. So for the cost of 
about, so far, around $10,000 to $12,000, we have been able to 
build a fairly nice target array and will continue to expand on 
that.
    I am sure once somebody figures out we are utilizing them, 
then we will not be able to get them as cheaply as we have so 
far, but we have got just over 200 sitting out there now.
    Mr. Putnam. You mentioned the urban warfare target array, 
as we shift the focus of the entire military, not just this 
range, away from the traditional sight bomber scenario and we 
get into more complicated situations, urban warfare zones as we 
have seen in central Europe, how has this range evolved and 
adjusted to meet the changing needs of the training 
requirements for the personnel? And could you elaborate some 
more on that urban center?
    Lt. Col. Thompson. Certainly. If I can backtrack just a 
little bit. One thing this range has always prided itself on, 
if a user, somebody who wants to utilize this range, will tell 
us the type target arrays they would like, we will do 
everything we can to build that particular array for them. I 
will give you a particular instance.
    In the previous couple of years, Aviano has not been able 
to train the fighter wing there, the 31st Wing at Aviano, S-16 
wing. They have not been able to train in Italy to the full 
extent they would like. This year, we have not seen them, but 
the two previous years to this year, we had a month long 
deployment of a squadron from Aviano come over here. They told 
us the type target arrays they would like to see, we built them 
for them before they ever arrived and had them out there. And 
that greatly enhanced their capability to drop precision-guided 
munitions like laser-guided bombs.
    That is one of the reasons we are building the urban target 
array. As we move into peacekeeping type operations and other 
issues like we have seen in Bosnia, the targets are not like 
they were in Desert Storm where you have got the republican 
guard entrenched out in the desert and bunkered up and where we 
could go do our tank clinking. We are finding targets that are 
out sitting beside government buildings in towns or beside 
houses and that takes a particular type of training, because 
even though we are dropping those bombs from 20,000 to 25,000 
feet, you have got to train properly to put that laser on the 
spot to enable the bomb to hit it and there are issues involved 
there with lasing that you do not want to mask the laser spot 
by having a building between you and the target. So there are a 
lot of different things you need to train to, to perfect that 
ability and be ready to do it when our national command 
authority calls on us to do that.
    So we are trying to construct those type target arrays that 
will enable us to better train in that regard.
    Mr. Putnam. Mr. Liszt, Florida is growing rapidly, we have 
600 to 700 new residents per day that come down here. We have 
tremendous challenges in our commercial airports, Tampa 
International Airport is in the process of greatly expanding 
their capacity, Orlando, Miami, Hardee County is in the process 
of trying to lure a major commercial airport there.
    As these growth patterns continue, the peninsula is only so 
big, will we be able to continue through your real time 
airspace management strategy to maintain essentially a 
protected hole in the sky as large as this range requires, 10, 
15, 25 years down the road?
    Mr. Liszt. Yes, I believe we will. And the way that will 
happen is with the near real time and new automated equipment. 
Currently, we have in every one of our en route air traffic 
control centers a traffic management unit that knows where 
every airplane in the sky is, time estimates and controls the 
flow of those through the command center.
    Florida, unlike most of the rest of the country, runs 
north-south. So we in Florida are procedurally designed around 
the area we are speaking of. Where there might be an impact is 
how high these missions require, should they change. If they go 
up very high, then we are going to affect the traffic that runs 
east-west across Florida. So that would be the impact. There is 
enough space to get around south, we are looking at a fourth 
runway at Orlando and new arrival fixes to the east coming out 
over the ocean. We are looking at reduced vertical separation 
over the ocean, so I think we will see more traffic over the 
ocean and the Gulf of Mexico in the future.
    Mr. Shays. Let me just interrupt the gentleman just for a 
second, if he would yield. We have two individuals who would 
like to address the committee. I would also say that whoever 
addresses the committee, if they would like, could address 
question to the panel. We will ask the panel to stay, if they 
would like that.
    Right now, we have two, and we are happy to just have two. 
We are not looking to encourage someone else, but anyone else 
who would like to speak, there are these forms. The two we have 
right now, the forms will be brought to you--Robert Babis has 
requested, and Alec Fulford. If there is anyone else--Jason 
over there is passing out the forms and we will be using a live 
mic, so you will be able to address the committee in a 
statement and address a question to the panel if you would 
like.
    I thank the gentleman for yielding.
    Mr. Putnam. Thank you, Mr. Chairman, I appreciate that.
    Colonel, do you see down the road the future of aviation 
tactics and strategic weaponry--is there going to be a need to 
raise that ceiling for ranges such as this? Is that the 
direction that the technology is moving, is that going to be an 
issue that we are going to have a hearing in 12 or 15 years to 
address the fact that 31,000 feet is inadequate?
    Lt. Col. Thompson. I think for the foreseeable future, the 
next 15 to 20 years, 31,000 will be adequate. We do not 
routinely use 31,000 day to day, but we do it when we have 
large exercises, when we are bringing in large fighter 
packages, we need the airspace then to coordinate all that.
    Generally speaking, we employ our ordnance below 25,000, 
but the potential to have that, we need to keep that and 
protect that, but I do not see us expanding above that. What we 
currently have, I think will be adequate.
    Mr. Putnam. Is that fairly standard for ranges around the 
country?
    Lt. Col. Thompson. No, it is not. In fact, 10 years ago, I 
do not believe we had up to 31,000 on an as-needed basis. That 
has been a development in that timeframe.
    Mr. Putnam. So you have more space than average?
    Lt. Col. Thompson. We do.
    Mr. Putnam. More vertical airspace.
    Lt. Col. Thompson. Correct.
    Mr. Putnam. We are, again, in a better position than some 
other ranges in terms of the encroachments.
    Lt. Col. Thompson. Many ranges are capped at 18,000 foot 
and below, some lower than that, but 23,000 is probably about 
the highest most of them go without other special use airspace 
above that.
    Mr. Putnam. Thank you. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman. I just have a few other 
questions.
    I would like to know, Colonel Thompson, what happens when 
there is a misplaced bomb, either inert or not, that--what do 
you do with it, do you track it down, do you--I mean----
    Lt. Col. Thompson. We have got very set procedures on when 
we can arm up our weapons system and generally speaking you 
have to be over range property proper to arm up a system to 
allow a bomb to come off the aircraft. Now occasionally we will 
have stray electrons that run through airplanes because of a 
maintenance malfunction that will allow a weapon to come off 
unintended, without anybody pushing the button or when you 
throw a switch that it should not cause a bomb to come off. 
That is very rare, we have not had a bomb come off outside this 
range in quite awhile and as soon as we do that, the pilots 
advise us of that. It is back to a basic integrity issue then. 
We expect them to notify us of that. Hopefully it was seen to 
come off and we are able to pinpoint the location, but 
generally speaking, the targets we have, we know the area they 
will be flying over to employ that ordnance and we are able to 
track that down. If it occurs off range, then we are going to 
send a team out there first off to find that piece of ordnance, 
whether it is live or inert, and then we are going to make sure 
that it has not damaged any civilian property and we are going 
to cordon it off and have our emergency ordnance disposal team 
come out and make sure that the weapon is safe and then remove 
it.
    Mr. Shays. The sea/land containers that you were able to 
purchase are basically containers that somehow have lost their 
integrity to be precisely measured and fitted in, so they are 
of no use obviously to shipping companies. You have answered a 
question that I have often wondered, why I see six stories 
worth of containers stacked in Newark, NJ. One of my staff 
suggested that since we have such precise ability to hit the 
target, we could just leave them right where they are and--
[laughter]--but that not being feasible----
    Lt. Col. Thompson. I am sure there would be other issues 
there, sir.
    Mr. Shays. Yes. But it does make me wonder if we have a 
best business practice policy that would make sure that your 
success in your space with obtaining these is shared with not 
just the rest of the Air Force, obviously Colonel Wheeless 
knows about what you are doing, but I am just wondering if 
there are not other--the other branches that do have sites, if 
they should not be made aware of this. I am wondering if you 
have made an effort to share this with other facilities.
    Lt. Col. Thompson. We have made an effort in Air Combat 
Command to do that. We have not with our sister services and 
that is certainly something that we need to pursue.
    Mr. Shays. Yes. I love the competition truly among the 
branches, so if you were to tell the Army about this, they 
would consider you a traitor, you would just get hit again a 
second time.
    Lt. Col. Thompson. Probably, sir.
    Mr. Shays. OK, well, with the power vested in me, please 
feel free to do it.
    Lt. Col. Thompson. Yes, sir.
    Mr. Shays. OK. I have no power to have you do that, but it 
is a suggestion. [Laughter.]
    Lt. Col. Thompson. I understand.
    Mr. Shays. But one of the things that, for instance, this 
committee may do in our report is suggest that this practice be 
pursued very quickly. One thing I know I want in the report 
fairly quickly is I do not want our ranges being viewed as 
surplus property without a tremendous amount of long-term 
planning. Obviously some smaller ranges may not have the 
capability to continue, but a jewel like this facility, we do 
not want to start having--and it seems to me that the success, 
Mr. Olsen, you are having working with your Command to utilize 
the facility to also--you do not handle, or do you, the whole 
issue of the campers. You are just totally with the forest 
side, the hunters and so on.
    Mr. Olsen. Yes, that is correct. But I am familiar with the 
program.
    Mr. Shays. But would that be handled out of your--directly 
out of your office?
    Lt. Col. Thompson. We have a separate group of people in 
the organization that handle our camping and recreational 
hunting and they do a very good job for us, but it is a 
separate section of the Environmental Flight.
    Mr. Shays. It just seems like it is a win-win. I mean as 
long as--I know the sense of when your constituents, Mr. 
Handley, will start to complain is when if for some reason we 
saw, you know, do not trespass signs going up and not being 
able to utilize it, then the whole success of what you have 
been able to achieve will go down the drain.
    I do not really have other questions. Mr. Landress, I 
would--except for this--I am interested to know if the 
personnel that you have, the inmates, and are you also involved 
with the younger inmates or that is a different area.
    Mr. Landress. That is a different area.
    Mr. Shays. But I know that some of the public sometimes 
wonders why we should let people in corrections facilities 
produce a product that competes with the private sector. But I 
just have a hope and a prayer that people who are in prisons 
are made good use of and develop skills and ultimately can 
leave those facilities as a contributor to society, not a cost. 
I am just interested if you have worked with this range to see 
if there are ways that your inmates can be utilized to provide 
a service.
    Mr. Landress. Well, we have inmate work squads who do 
contribute to natural resources, we recently built walkways and 
assisted in building bird houses that they use on the range.
    Mr. Shays. OK.
    Mr. Landress. So our inmates do a lot of work. We do have 
our own industry program there where we have a tire recapping 
plant that sells mostly to the counties for school buses. We 
have a sanitary supply operation where we provide all cleaning 
supplies for State government. This is a big pride operation 
here in Florida. So we do utilize the inmates. Of course, many 
of them are trusty levels that do not permit us to let them 
outside.
    Mr. Shays. I understand that.
    Mr. Landress. But we do have a work camp where we have 200 
or 300 inmates who are at the level that we can permit to go 
into the community to work on our Department of Transportation 
and around the base here.
    Mr. Shays. And when Mr. Putnam invites me down again to 
have another hearing or to see something in his Congressional 
District and I come here and I drive on those roads, we are 
going to know they are all taken care of and the obligations of 
the State are----
    Mr. Landress. We will either have that road built or I will 
be retired. [Laughter.]
    Mr. Shays. Well, I hope you do not retire.
    Mr. Putnam. We are going to do our part for the bridge.
    Mr. Shays. Now is there any--I said I had one more question 
and I really digressed slightly. I do have one last question 
that is kind of broad, but would any of you like to address 
this question--what do you see as the long term potential for 
Avon Park Range as a training facility, a recreation facility 
or for other uses? Would any of you like to--why do we not 
start with you, Colonel Thompson.
    Lt. Col. Thompson. I would be happy to make a stab at that, 
sir.
    I think long term we have the capacity here to handle more 
training than we currently handle. We also have the ability to 
have our recreation use continue in its present state and we 
have the opportunity to bring our sister services in once we 
work with them to make sure that we are not going to violate 
any current conditions we have in our environmental permits and 
modify those as necessary if we need to. And then also reach 
the funding levels we need to be able to handle the increased 
range usage. I think that could potentially be a challenge 
there, but I believe there are avenues to address that.
    Mr. Shays. Would anyone else like to respond?
    Mr. Olsen. Yes, I just want to add one thing. The 
recreational program adds a great PR to this range, there is no 
doubt about it. There is a lot of public that utilizes this 
place for all these different opportunities and the Air Force 
has done an excellent job to try to accommodate them and we 
just hope it can continue.
    Mr. Shays. Any other comments?
    [No response.]
    Mr. Shays. OK, this is what we are going to do--I am going 
to just--we have five people who have requested to address the 
committee. We have Robert Babis, we have Alec Fulford, we have 
Roy Whitten, Edgar Stokes and the last name, Donelle Schwalm. 
Am I saying your name correctly? Good, that is unusual. My 
staff has a good laugh sometimes when I call our witnesses and 
our guests to make comment.
    What we will do then is recognize in the order that I 
called them, Robert Babis, if you would raise your hand and we 
will make sure you get that mic. Right over there. We are going 
to wait until you get a mic. Do we have a mic. We have one mic, 
so Jason will--let us just be sure that--is that mic not 
working? OK, the mic is not working, it worked before. Let us 
not give up too quickly here.
    Voice. It needs a new battery.
    Mr. Shays. Just wait 1 second. Do we have a second mic? Let 
us just check to see if the other one works. Jason, is there 
another mic?
    The Reporter. Just use the Colonel's right there.
    Mr. Shays. Yeah, we will, we will in a sec. Court reporters 
are not allowed to overturn the chairman here yet. [Laughter.]
    I will acquiesce soon, but--I get pushed around enough by 
my leadership to give up control here. [Laughter.]
    Adam understands that.
    OK, that is what we will do. Let us just see how far we can 
pull that one up. Thank you. Mr Babis, welcome.
    Mr. Babis. Thank you, Mr. Chairman. Welcome to you. My name 
is Robert Babis, I live in Tampa, FL. I am a commercial pilot 
and a former military aviator as well. I do a lot of flying in 
the State of Florida and the Avon Park Range, I have bombed on 
it and----
    Mr. Shays. Hopefully that was when you were in the 
military. [Laughter.]
    Mr. Babis. So I know the geography and I know the airspace. 
I have a question I would like to address to the FAA.
    In the Special Use Airspace Management System, is it 
implemented here now? And that is one of the questions. Has it 
been implemented for Avon Park.
    Mr. Shays. Why do you not ask all your questions and then 
we will--so that is one question. Do you understand the 
question, Mr. Liszt?
    Mr. Liszt. No, I do not understand what you mean by 
implemented.
    Mr. Babis. The Special Use Airspace Management System that 
you mentioned in your remarks. Is it implemented here at Avon 
Park?
    Mr. Shays. OK, that is one question. Do you have another 
question?
    Mr. Babis. The other one was in designing the system for 
the Special Use Airspace Management System, was there civilian 
input as far--I know you had DOD input, but did you have civil 
input from general aviation and commercial aviation? That was 
the other question to the FAA.
    Mr. Shays. OK, thank you.
    Mr. Liszt. The answer to the first question is yes, Avon 
Park is inputted into this Special Use Airspace, into SAMS. 
That is currently done on a scheduled basis when it becomes 
active and when it closes down, and that information----
    Mr. Shays. Make sure you keep talking to the mic.
    Mr. Liszt [continuing]. Is populated directly to the 
control work force.
    As far as the second question, I cannot give you a yes or 
no. The process would have been that civilian input would have 
been taken into consideration.
    Mr. Shays. Let me just say that as a general rule, there 
usually are hearings and there should be. If there is not, it 
is something that Mr. Putnam can followup on because there 
needs to be that citizen input.
    Mr. Liszt. That is the process.
    Mr. Shays. Thank you.
    Our second question is Alec Fulford. You need to stand in 
front. I am sorry that we are doing it this way.
    Mr. Fulford. It is about taller than I am.
    I appreciate being able to ask this question. I lived here 
for 26 years on the bombing range, the family did, with cattle, 
and then moved up to Highway 60 in 1988. And that low flight 
pattern is right over the top of my TV antenna coming off that 
lake, Lake Kissimmee. Since you have quit flying, we do not 
have that problem, but I do have the National Guard shooting 
the other way shaking the windows.
    The question I have really got to ask about is do you 
foresee the State or the Air Force increasing their area such 
as on the River Ranch property north of the bombing range as 
far as accessing or purchasing?
    Lt. Col. Thompson. Well, I do not see the Air Force buying 
any more property.
    Mr. Shays. Let me do this before you respond. Do you want 
to make a comment as well and then we will have you sit down, 
but I get nervous when you keep holding the mic because----
    Mr. Fulford. What did I do?
    Mr. Shays. No, no, you are doing great, you are doing 
great. It is just that I am going to make sure we do not have a 
continued dialog. So I would like to request that you ask your 
question and I also want to make sure that you address any 
point. Is there a question here that you want us to be aware of 
before he answers?
    Mr. Fulford. My question is do they foresee expanding the 
area north.
    Mr. Shays. And what is your sense if they do that? Is that 
a good thing or a bad thing or an in-between thing?
    Mr. Fulford. Well, it would put me out of business, yeah, 
from that standpoint.
    Mr. Shays. OK, fair enough. So we have a real need here to 
address that question. Thank you, sir.
    Lt. Col. Thompson. In response to that, I do not see the 
Air Force buying any additional property to the north. I know 
there is an area that is depicted on the map behind you that 
the State of Florida is considering buying as conservation 
land, to preclude any encroachment on our range property. But I 
do not see the military buying any more land.
    Mr. Shays. Do you want to followup?
    Mr. Fulford. Do you foresee----
    Mr. Shays. No, you need to use the mic.
    Mr. Fulford. Do you foresee the Air Force using that 
conservation land?
    Lt. Col. Thompson. Well currently our military operating 
area, not range airspace but military operating areas that we 
refer to as MOAs, do expand north of the range, as we are 
currently set up. It does not go down to the surface down there 
though.
    Mr. Shays. So you want another question? I am happy to have 
this dialog because it is educational for the committee.
    Mr. Fulford. Just a comment. Down to the surface could be 
100 foot over my house.
    Lt. Col. Thompson. Well, the range space we have up there 
right now, sir, none of it goes below 500 feet and most of it 
is 1,500 foot and above.
    Mr. Shays. If you do not mind, I would love to understand 
something. As much as we have a buffer zone, the flight pattern 
to get here requires them to fly low or are they actually on a 
target assignment? Are they actually practicing?
    Lt. Col. Thompson. There are 14 military training routes 
that terminate in Avon Park Range. They either come in from the 
north or from the south portions of the range to terminate on 
the range airspace itself. Some of those low level routes do 
run over property up there. They have been established for a 
number of years, some of them in excess of 20 years, they have 
been out there already.
    Mr. Shays. So as much as we have a buffer zone, they still 
are--before they even get to the buffer zone, are flying at a 
fairly low altitude in some areas and the only reason that--and 
evidently it is still fairly open spaced areas with selected 
ranches and homes.
    Lt. Col. Thompson. That is correct. There--I am sorry--the 
military----
    Mr. Shays. But the danger would be, if this gentleman ended 
up selling--not that--I am speaking with very little knowledge 
here, but what has happened in other places, sells his land to 
a developer who starts to put up 100 homes and then we start 
hearing from 100 people, not from 1 person. I mean there are 
some real challenges that develop there.
    Lt. Col. Thompson. Yes, sir.
    Mr. Shays. And Florida has been known to put up 100 homes 
in small areas. Did you have a----
    Mr. Putnam. If the gentleman would yield. If you could 
quantify how long that ingress and egress is, is it 30 miles, 
is it 50 miles that they drop down to that 1,500 foot deck?
    Lt. Col. Thompson. Some of the routes are more than 100 
miles long, but generally speaking, we are not going to linger 
over somebody's house. They will be doing--in the case of an 
Air Force fighter, they might be somewhere between 500 and 
1,500 foot above the ground and they will be traveling about 
480 knots, which is about 8 miles a minute. So they will be out 
of that airspace relatively quickly.
    Mr. Shays. Yes, but that is a low flight.
    Lt. Col. Thompson. Yes, sir.
    Mr. Putnam. Has there ever been a situation--are they 
traveling at a speed where they could potentially create a 
sonic boom over----
    Lt. Col. Thompson. No, they do not, not on these military 
training routes. They are restricted to subsonic air speeds, 
they do not come close to approaching----
    Mr. Shays. But as this gentleman would point out, when you 
fly 500 to 1,000 feet, it hardly matters if it is a sonic boom 
or not. It is an exciting moment in his life. [Laughter.]
    Mr. Putnam. Mr. Fulford, are you sure some of that 
artillery sound is not just those guys at River Ranch shooting 
those propane tanks?
    Mr. Fulford. No, because it comes back over the house. 
[Laughter.]
    Mr. Shays. Thank you for addressing the committee, that is 
very helpful.
    We now have Roy Whitten. You know, I really would like to 
ask if any of the speakers are from Connecticut because I would 
give them twice as much time. [Laughter.]
    Mr. Whitten. Well, I did spend some time in Connecticut, so 
if that will give me a little extra----
    Mr. Shays. Any time means you were in prison.
    Mr. Whitten. OK. Mr. Chairman, Congressman, my name is Roy 
Whitten. I have been affiliated with the Air Force off and on, 
shall we say, for the past 60 years. I was in that regular Army 
Air Corps before World War II on the flight line, during World 
War II as a sergeant on the flight line and during Korea as an 
information officer with a training base in Arizona. I ended up 
my career out of the Reserve in the Secretary of the Air 
Force's office in Washington.
    I have lived here now for the past 20 years, in this area. 
I have been affiliated with the Air Force Association, the 
Retired Officers' Association and the Highlands County 
Veterans' Council. And I think I would speak for the large 
majority of all the members of that group and all veterans in 
this county to say that training is so important. Some very 
wise general perhaps or sergeant many years ago said ``The more 
you sweat in training, the less you bleed in combat.'' I think 
that everybody would agree.
    On April 28, 1993, General Chuck Horner, who as you 
remember was the air boss in Desert Storm, stood outside here 
near where the flagpole is and in one of his remarks he made he 
said ``The training that the pilots received at Avon Park and 
other training ranges saved many a life in Desert Storm, both 
in the air and on the ground.'' I think that is a good 
testimony for the value of this.
    Now this community I think has supported the range and vice 
versa. And I think we should take that and realize how much the 
range has supported the community, financially and otherwise.
    This occasion that General Horner was here was because we 
were at that time downsizing the military down to, as the 
Colonel said, to he and four other persons. At that time, we 
had 200 and some odd people here. But all--and during that 
time, Steve, we did have a military affairs committee with the 
Chamber of Commerce, of which I served on during that time. So 
we had a good relationship and I think it would continue to be, 
whether it is run by civilian or whether it is run by military, 
because also as a former economic developer, I know the 
economic impact that a range like this has upon the community, 
in more ways than one.
    Thank you for having the opportunity to make this 
presentation.
    Mr. Shays. Thank you.
    I would now--I am going to come back and ask a question of 
our second speaker, if he would remain. But we will go to Edgar 
Stokes.
    Mr. Stokes. Thank you, Mr. Chairman, Mr. Putnam; Edgar 
Stokes from the Highlands County Board of County Commissioners. 
Just a short statement and to recognize that we do have an 
economic impact analysis of the Avon Park Air Force Range from 
the Economic Development Commission in Highlands County.
    Mr. Shays. We will make sure that is a part of the record, 
if it is not already.
    Mr. Stokes. You should have one. If you do not, we have 
some more copies.
    Mr. Shays. We will make it a part of the record. It is part 
of the record? OK.
    Mr. Stokes. We recognize the economic impact that it has on 
this county, also the recreational impact that it has, and to 
recognize that you are looking at all avenues of impact to 
enhance the use of this range.
    Just a comment from Mr. Handley's statement about the 
Lorida area south of the bombing range. I know it is misleading 
when you go through that town to realize you are in town, but 
we have got blinker lights there now to bring that out. 
[Laughter.]
    And also this study will show that 75 percent of the 
residents that live in Highlands County live in the rural areas 
and there are several developments out there, good size 
developments just south of the range.
    As it happens, at this time, we are looking at a noise 
ordinance in Highlands County. The airboats some up quite a 
bit, but they are nothing compared to one of those low flying 
jets. So if you would consider that. Thank you.
    Mr. Shays. Thank you, sir.
    Mr. Putnam. Mr. Chairman.
    Mr. Shays. Yes.
    Mr. Putnam. Commissioner Stokes, as you know, the range 
sits in sort of a precarious way between Polk and Highlands 
County. Do the two boards of county commissioners ever meet to 
coordinate planning or strategy for the range or ways that they 
can work together for things like the bridge or repaving or 
putting a best foot forward for a looming BRAC Commission or 
things like that? Do you have pretty good communication with 
the Polk County Commissioners on these things?
    Mr. Stokes. Yes, we communicate from time to time. Fact is 
I think we just took over some maintenance on mowing on the 
roads, some of the roads out there; so, yes, we do occasionally 
if something comes up, we're in correspondence with them.
    Mr. Putnam. So you feel like there's a pretty good working 
relationship down there?
    Mr. Stokes. Oh, yes, sir.
    Mr. Putnam. Thank you.
    Mr. Shays. Thank you very much, Commissioner. Our last 
speaker is Donelle Schwalm.
    Ms. Schwalm. It is Donelle Schwalm, but I do not take 
offense, nobody ever gets it right.
    Mr. Shays. You cannot be too fussy with me, that is about 
as good as you are going to get.
    Ms. Schwalm. That is all right, it is usually Danielle--I 
am over it.
    I am a contractor for Archibald Biological Station----
    Mr. Shays. Speak more slowly.
    Ms. Schwalm. I am a contractor for Archibald Biological 
Station.
    Mr. Shays. Yes.
    Ms. Schwalm. And I am in charge of gathering the biological 
data associated with RCW, red cockaded woodpecker, here on the 
range. I also help, to an extent with the Florida scrub jay 
work, but not a lot, I am not very familiar with that.
    Anyway, my question is at this point in time we have, 
through working with the Air Force, we are able to get the 
bombing schedules, we are able to keep out of their way and 
still get the good biological data that you need to make the 
decisions concerning endangered species.
    Mr. Shays. Right.
    Ms. Schwalm. Now I'm getting the feeling that the activity 
has a good potential to increase here and I am curious how that 
would affect--this is probably a question for you, Commander--
how that would affect our ability to get the data that you need 
in order to make informed decisions.
    Mr. Shays. And before he answers the question, let me just 
ask you a question. You work directly for whom?
    Ms. Schwalm. Archibald Biological Station, it is located in 
Lake Placid.
    Mr. Shays. OK, and that is funded by whom?
    Ms. Schwalm. I believe our research is funded through the 
Air Force but I am employed through Archibald, a private 
contractor.
    Mr. Shays. I have got you. And is the private contractor 
basically hired by the Air Force?
    Lt. Col. Thompson. Yes, sir.
    Mr. Shays. One of the things that--just of the 
observations, one of the cleanest sites in Puerto Rico right 
now, one of the nicest Reserve sites, is the--the island is 
divided into thirds. You have the range on one end, you have 
the village 9 miles away and on the other side you have where 
all the munitions are kept for the larger base in Puerto Rico. 
And that is now being given to the Puerto Rican Government for 
practically noting, $1.
    One of the pluses that we find, we have some environmental 
concerns with the military in terms of what, you know, has 
happened in terms of chemicals and so on, but how the military 
has managed their ranges and so on, hiring you in that sense, 
to monitor it, has been pretty exemplary. We have been pretty 
pleased in government how that has happened. I just wanted to 
say that.
    But I would love--you will get your question answered. You 
can stay up here if you have a followup question.
    Lt. Col. Thompson. Well currently, as you know, we have our 
contractors go out to do their work very similar to how we do 
real time range scheduling with Miami Center. And so we do not 
allow the contractors out on the property when we have training 
going on out there obviously, but even in the foreseeable 
future, if the usage of the range were to increase 
significantly, it still will not probably, except during 
exercises, encompass the whole range at once. So I believe that 
your efforts would still be able to pretty much proceed like 
they are. They may have to change hours a little bit, but we 
should be able to still do what we are doing.
    Mr. Shays. Donelle, when you go on the site, what hours 
usually are you on the site?
    Ms. Schwalm. For me personally, studying red cockaded 
woodpeckers requires that I be out just before sunrise, so I am 
usually there, during the breeding season at 5:30 a.m. 
Depending on how intense the work is during the day, I may be 
there throughout the day and again, I have to work around their 
bombing schedule, I do not want to get my brain blown out and I 
do not want to shut down the mission.
    Mr. Shays. I fear the gators more than the bombs. I have 
got a thing for gators here. [Laughter.]
    Ms. Schwalm. Oh, man, there are some big ones, go down on 
the river. Personally, they are not an issue for me, I work in 
the flat woods. But yeah, we spend a lot of time out in the 
field but it is generally early in the morning and then again 
late at night.
    Mr. Shays. And early in the morning and late at night is 
when you observe, it is easiest to observe them?
    Ms. Schwalm. Exactly. For red cockaded woodpeckers, they 
have a range forage of like 400 and some odd acres, so we want 
to catch them at their trees early in the morning.
    Mr. Shays. But if you miss a week or two, is that a 
problem?
    Ms. Schwalm. Yes. Depending on at what point in time you 
are collecting your data. If you want to know what the breeding 
productivity of the group is, for the breeding season you 
need--for example, right now, we visit every cluster every 3 
days, we monitor their nesting attempts, how successful they 
are, fledge attempts, and if you miss 2 weeks in there, you 
might miss nesting attempts.
    Mr. Shays. During the breeding season.
    Ms. Schwalm. During the breeding season, which for Florida 
scrub jays begins in mid to late February. For red cockaded 
woodpeckers, it begins in mid to late April and then it 
continues through July.
    Mr. Shays. Well, I can tell you one thing, that the Air 
Force has to be sensitive to that, because they do not want a 
position where they are ultimately having to shut down because 
they are not, so you carry a bigger stick than you may realize 
and so use it judiciously.
    Ms. Schwalm. OK.
    Mr. Shays. Thank you very much.
    I just would like to make sure I am clear, because we 
really did not have a lot of testimony on this. Mr. Fulford, 
you basically were raising an issue that I honestly would have 
left the hearing without realizing. I made an assumption that 
the buffer zone was so large that aircraft would come in high, 
then dip down beforehand and what I am hearing is that to even 
as large as this area is, they are still having to come down 
pretty low. And so the question I am really going to ask you. 
For one, I want to make sure that is right, but the second 
question I want to ask is, is there value in the government 
buying development rights. In other words, Mr. Fulford, without 
you coming up, I am assuming you have a ranch there?
    Mr. Fulford. No, sir, I live on 60, I lease property there.
    Mr. Shays. Yeah, OK. And it is a fairly large space?
    Mr. Fulford. Yes, sir.
    Mr. Shays. So what you obviously do not want, it would seem 
to me, Colonel, is to have this suddenly become a developed 
area. Is there ever thought to buying development rights to 
allow it to continue the way it continues, so no one is being 
economically disadvantaged, in fact they may be helped because 
they have some resources, but then in perpetuity, it maintains 
less dense space.
    Lt. Col. Thompson. We have not done that in the Avon Park 
Air Force Range area, sir, but I know it has been done in other 
locations. So that is certainly a viable tactic to keep us from 
having the problem. Now as our training has evolved and our 
employment techniques changed in the last 10 to 15 years, we 
have less emphasis on low level training now than we did 
previously, because the threat has changed. A lot of the low 
level training was predicated on fighting a European scenario 
of war where we were going to have the weather as a factor. We 
do not--we still train to that, but not to the level we have in 
previous years. Most of the precision guided munitions are 
brought in at a higher altitude and so we do not have nearly 
the low level flights that we have seen in the past.
    So I think it is much less of a problem now and will 
continue to be less of a problem than what it was 10 to 15 
years ago.
    Mr. Shays. But you would agree, would you not, if activity 
increased nine-fold----
    Lt. Col. Thompson. There would be----
    Mr. Shays [continuing]. That we would start to have people 
in this room who would say, you know, we are being negatively 
impacted.
    Lt. Col. Thompson. There would be some increase in that; 
yes, sir. And we would do our best to accommodate them and try 
to change flight paths to----
    Mr. Shays. Vary it so you are not always coming over the 
same area.
    Lt. Col. Thompson. Yes, sir, exactly.
    Mr. Shays. One of the challenges that we had in LaGuardia 
coming over our property is the FAA can be so precise now with 
their locking into the line of the runway that the plane high 
up does not vary but a few feet and we started having 
consistently residents saying something terrible is happening, 
we are getting all these new flights. And what it was was they 
were able to direct it so precisely and so we asked the FAA to 
periodically vary that path so that, you know, more residents 
would feel it, but they wouldn't feel it enough to have it be 
the challenge it was for a few.
    Mr. Putnam. If the gentleman would yield. The map, the 
State has tremendous designs on this entire ridge area, as they 
call it. The green area that moves south from the range to Lake 
Okeechobee is wholly owned now by the State, I think they have 
completed their purchase of the entire area. The yellow area 
above there is also managed by the State and the River Ranch 
area, for good or for ill, is also slated to be part of a 
purchasing program by the State. So I think that actually the 
Air Force benefits from the fact that the State is doing their 
work for them, using State dollars, as they continue to buy up 
these conservation easements and development rights in outright 
purchase.
    Now wearing my non-Air Force Range hat, I do not know that 
is necessarily a good thing, but it will ultimately benefit 
you, from an encroachment standpoint.
    Mr. Shays. We are going to close and then I will recognize 
my colleague, but before closing, I want to thank Colonel Len 
Wheeless. Colonel, it is nice to have you here, I enjoyed my 
conversations with you last night and I appreciate the work you 
do throughout the country. We have Colonel Earle Thompson, who 
has I think been appreciated by your commanding officers and I 
can understand why, I appreciate what you have done as well.
    We appreciate the use of this facility. We also thank the 
fine staff at Avon Park for their skill and help and kindness 
in arranging these hearings--Kenneth Beers, Michael Goodson, 
Richard Cutshell, Wayne Stewart and Anita Shock.
    And I also want to thank our court reporter William Warren, 
who almost wanted to take over control of this hearing--
[laughter]--you need to put that in that hearing transcript, 
Mr. Warren. [Laughter.]
    And also a final special thanks to Jason Chung, the 
subcommittee clerk who artfully mastered the thousand details 
it took to put this hearing on, and appreciate his very good 
work.
    At this time, I would also thank you again, Mr. Putnam. I 
have enjoyed being in your district and would say to those 
present, it is fascinating to know a Member up in Washington 
and appreciate the good work they do, it is particularly 
valuable to see the districts they represent and the people 
they interact with and it helps you understand your colleague. 
We all are, in a sense, creatures of the districts we 
represent. We grew up there in many cases, we are shaped by the 
district and we tend to, as we should, reflect the interests of 
the district. That is what our founding fathers intended. And I 
think I understand you a bit better by being in your district 
and have always appreciated your work and am grateful that you 
got me down here.
    Mr. Putnam. Thank you, Mr. Chairman, and I want to thank 
you for accepting my invitation and indulging in our request to 
hold a subcommittee hearing in the district, particularly as we 
are beginning now our month long August recess in the Congress. 
I can think of no other Member of Congress who has earned a 
month long recess than you have, Mr. Chairman.
    And I want to thank my district staff and my Washington 
staff, who worked with the subcommittee and the local 
organizers and the Range to put together an outstanding 
hearing.
    And I want to thank the people who came out. We had a lot 
of young people in the audience earlier. I think some of them 
are still here and others have left, who I think benefit 
greatly from the opportunity to see Congress in action in their 
hometown and in their community. It is important for Congress 
to get out of the beltway from time to time, to hold these kind 
of hearings and to hear from local officials and local 
stakeholders.
    And I want to thank the veterans who are here. There is an 
awful lot of members of the veterans service organizations who 
have come out to participate in this hearing. And Colonel 
Thompson, I want to commend you. If you were not managing this 
range well, it would be standing room only. And I think that 
the fact that we have a few empty chairs is indicative of the 
relationship that you have forged as a good neighbor to the 
community and to the county and to the local governments.
    And as we continue to work through these things, I look 
forward to the continued participation from the airport 
authorities and the local city councilmen and our environmental 
community and our National Guard folks. It is an honor to be a 
part of this process where we go around to different 
communities like Avon Park and hold a U.S. congressional 
hearing to hear what people need and what their concerns are 
and how we can move forward in the Congress to resolve some of 
those issues in the context of the national interest. And so I 
thank everyone for coming out and participating in this.
    And Mr. Chairman, again, I cannot thank you enough for 
allowing the subcommittee to hold this hearing in my district.
    Mr. Shays. Thank you. You can adjourn the committee then.
    Mr. Putnam. With that, the subcommittee stands adjourned.
    [Whereupon, at 1:18 p.m., the subcommittee was adjourned.]

                                   - 
</pre></body></html>
